<html>
<title> - METHAMPHETAMINE TREATMENT: AVAILABILITY AND EFFECTIVENESS OF PROGRAMS TO TREAT VICTIMS OF THE METHAMPHETAMINE EPIDEMIC</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 METHAMPHETAMINE TREATMENT: AVAILABILITY AND EFFECTIVENESS OF PROGRAMS 
            TO TREAT VICTIMS OF THE METHAMPHETAMINE EPIDEMIC
=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2006

                               __________

                           Serial No. 109-223

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                     U.S. GOVERNMENT PRINTING OFFICE

43-331 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 2006....................................     1
Statement of:
    Cronkhite, Russell, recovered meth addict; Darren and 
      Aaronette Noble, recovered meth addicts, accompanied by 
      Joseph Binkley; Richard A. Rawson, Ph.D, associated 
      director, Integrated Substance Abuse Programs, UCLA; Leah 
      C. Heaston, MSW, LCSW, ACSW, SAP, Noble County director, 
      Otis R. Bowen Center for Human Services, Inc.; Michael B. 
      Harle, MHS, Gaudenzia, Inc.; and Pat Fleming, director, 
      Salt Lake County Substance Abuse Services..................    31
        Binkley, Joseph..........................................    38
        Cronkhite, Russell.......................................    31
        Fleming, Pat.............................................    46
        Harle, Michael B.........................................    43
        Heaston, Leah C..........................................    41
        Noble, Aaronette.........................................    36
        Noble, Darren............................................    35
        Rawson, Richard A., Ph.D.................................    39
    Madras, Bertha, Deputy Director, Office of Demand Reduction, 
      Office of National Drug Control Policy; Nora D. Volkow, 
      M.D., Director, National Institute on Drug Abuse, National 
      Institutes of Health, U.S. Department of Health and Human 
      Services; and Charles G. Curie, M.A., A.C.S.W., 
      Administrator, Substance Abuse and Mental Health Services 
      Administration, U.S. Department of Health and Human 
      Services, accompanied by H. Westley Clark, M.D., J.D., 
      M.P.H., CAS, FASAM, Director, Center for Substance Abuse 
      Treatment..................................................     7
        Curie, Charles G.........................................    11
        Madras, Bertha...........................................     7
        Volkow, Nora D., M.D.....................................     9


 METHAMPHETAMINE TREATMENT: AVAILABILITY AND EFFECTIVENESS OF PROGRAMS 
            TO TREAT VICTIMS OF THE METHAMPHETAMINE EPIDEMIC

                              ----------                              


                        WEDNESDAY, JUNE 28, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m., in room 
2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the committee) presiding.
    Present: Representatives Souder, McHenry, Cummings, and 
Foxx.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Michelle Gress, counsel; Malia Holst, clerk; Tony 
Haywood, minority counsel; and Jean Gosa, minority assistant 
clerk.
    Mr. Souder. The subcommittee will come to order.
    Good afternoon, and thank you all for being here. Today's 
hearing will examine methamphetamine treatment programs, their 
availability, effectiveness for addressing the needs of met 
victims and their communities.
    I am very concerned about this issue. I feel there is 
currently a treatment vacuum when it comes to meth. Despite the 
fact that the meth epidemic has swept across the country, and 
especially devastated our Nation's western States and rural 
areas, I am worried that effective treatment for meth addiction 
is not available where the people need it the most, because the 
communities most affected are the least equipped in their 
treatment capabilities to handle the special needs presented by 
meth users.
    An oft-repeated assertion is that meth addiction cannot be 
treated. That is incorrect. It can be treated. We will hear 
from successful treatment recipients. But the availability of 
effective programs across the Nation is difficult to measure. 
Moreover, without strong leadership from the White House Office 
of National Drug Control Policy and aggressively tackling this 
scourge of meth, Federal measures to address the treatment 
vacuum will languish, despite the tremendous toll this drug is 
having on our Nation.
    The meth epidemic has touched every State in the country, 
draining resources, causing serious environmental damage and 
destroying lives. SAMHSA's Drug Abuse Warning Network [DAWN], 
showed that in the early to mid-1990's, methamphetamine use was 
on the rise. The treatment episode data confirmed this: 
treatment admissions for meth use grew through the 1990's, 
increasing fivefold between 1992 and 2002.
    The most recent treatment episode data show that 15 States 
have higher rates of admission for amphetamine use, largely 
meth, than for heroin or cocaine. In just those 15 States, 
there were over 102,000 admissions for amphetamine treatment, 
versus 73,000 combined admissions for heroin and cocaine. 
Nationwide, there were more than 151,000 admissions for 
amphetamine treatment.
    To say that meth is highly addictive is an understatement, 
and it presents unique clinical challenges for treatment. Meth 
produces a short, intense rush, followed by a long-lasting 
sense of euphoria. Addiction to meth is caused by the way the 
drug alters the brain and leaves the users to compulsively seek 
more meth. Chronic use of the drug also leads to increased 
tolerance, prompting the user to take higher or more frequent 
doses of the drug to get the same effect.
    Moreover, meth users may also develop severe psychotic and 
paranoid behavior. Meth users who do seek treatment often 
relapse and continue chronic meth use. There are currently no 
medications that demonstrate effectiveness in treating meth 
addiction. But intense behavioral interventions have proven 
effective. The largest controlled study of meth treatment 
conducted by the Center for Substance Abuse Treatment 
demonstrated positive post-treatment outcomes for 60 percent of 
the treatment sample, which reported no meth use and which had 
urine samples that tested negative for meth.
    Nonetheless, traditional treatment programs for alcohol and 
marijuana are inadequate for dealing with the unique clinical 
challenges presented by this drug. Such treatment programs, 
sometimes the only treatment option available in communities 
hardest hit by the meth epidemic, result in very poor post-
treatment outcomes for meth users. This represents our greatest 
challenge: how do we ensure that our Federal treatment efforts 
are addressing the meth epidemic in measurable ways in the 
areas hardest hit by the scourge, in many cases very rural 
areas?
    I look forward to hearing from our witnesses today about 
the current state of meth treatment options: how prevalent, how 
effective, and by what measure. In the areas where we are 
falling short, I hope our witnesses are prepared to offer some 
solutions.
    We have, by the way, had meth treatment witnesses at at 
least six field hearings with scattered reports of both 
effectiveness, the mix and availability in those areas. Oregon, 
Arkansas, Minnesota immediately come to mind where we have had 
meth treatment witnesses at our hearings.
    I am particularly interested in the discussion with our 
administration witnesses who will present the information on 
Federal efforts for developing, supporting and measuring meth 
treatment systems and programs. The administration witnesses 
comprising our first panel are Dr. Bertha Madras, the Director 
for Demand Reduction at the White House Office of National Drug 
Control Policy; Dr. Nora Volkow, Director of the National 
Institute on Drug Abuse [NIDA], National Institutes of Health; 
and Charles Curie, Administrator of the Substance Abuse and 
Mental Health Services Administration [SAMHSA], and I am most 
pleased to say a fellow Hoosier, one of two Hoosiers testifying 
today.
    Dr. Clark, are you with Mr. Curie? I wanted to make sure I 
introduced you as well. I didn't see you on my list.
    Witnesses on our second panel will present on-the-ground 
perspectives of treatment, both from the treatment provider 
side and the recovered meth user side. This includes a second 
Hoosier witness, Leah Heaston, director for Noble County in 
Indiana of the Otis R. Bowen Center for Human Services; Richard 
Rawson, associate director of integrated substance abuse 
programs at UCLA; Russell Cronkhite, a recovered meth addict; 
Darren and Aaronette Noble, also recovered addicts, and their 
son Joey Binkley; Mr. Michael Harle, president and CEO of 
Gaudenzia, Inc., and Mr. Pat Fleming, director of Salt Lake 
County Substance Abuse Services.
    We welcome all of you.
    I also want to say for the record that Malia Holst has been 
our subcommittee's clerk, and today is her last hearing. She 
has been our clerk since April 5, 2004, and has cheerfully 
endured the countless schedule and witness changes during the 
time for hearings here in Washington and throughout the United 
States.
    She is exchanging her time here on the subcommittee for 
much better things. She is getting married later this summer, 
and then she and her husband will be attending Dallas 
Theological Seminary. I want to salute her diligent work and 
consistent Christian witness in the time we have had with her 
on the subcommittee. She has been a tremendous asset.
    Now I would like to yield to Mr. Cummings.
    Mr. Cummings. Thank you very much, and I too extend my best 
wishes to Malia. I want to thank her for her service to our 
committee and to this great country of ours.
    Mr. Chairman, I want to thank you for calling this hearing. 
But I want to start off by saying that I am concerned about the 
title of the hearing. The chairman and I get along very, very 
well. We are very good friends and we do just about 99 percent 
of the things we do in a bipartisan manner.
    But when we say the availability and effectiveness of 
programs to treat victims of the meth epidemic, I have never 
heard that word used with regard to the people from my district 
who suffer from cocaine addiction, heroin addiction, crack 
cocaine addiction. They are all victims. I think we have to be 
very careful with the use of words. Because there is no one in 
this Congress who will fight harder to make sure that those who 
have been victimized by any drug are properly treated.
    The second thing I want to say before I forget, I want to 
thank you, Mr. Curie, for your service. I understand you will 
be leaving your position. You have indeed been a breath of 
fresh air. Wherever your journey may take you, I feel that we 
have been so blessed as a Nation to have you at the helm of 
your agency. I just wanted to take this moment to salute you 
and thank you.
    Mr. Chairman, again, I want to thank you for this hearing. 
The National Institute on Drug Abuse [NIDA], defines drug 
addiction generally as a chronic relapsing disease, 
characterized by compulsive drug-seeking and drug use, and by 
neurochemical and molecular changes in the brain. Numerous 
studies demonstrate the efficacy of drug treatment in reducing 
drug use and related problems and behaviors, including criminal 
activity, unemployment, poor health and engagement in risky 
sexual or drug consumption behaviors that may result in 
infection with HIV, hepatitis and other dangerous communicable 
diseases.
    Unfortunately, limited public funding for drug treatment 
puts the benefits of treatment out of reach for many 
individuals who need and seek treatment but cannot afford to 
pay the cost out of pocket. Of the 22 million Americans with 
substance use disorders in 2003, approximately 3 million people 
received treatment, leaving an estimated 19 million Americans 
without treatment services.
    Closing the so-called treatment gap should be a leading 
priority of our national drug control strategy. And nowhere, 
absolutely nowhere, is the need for expanded access to 
treatment more clear or more compelling than in the context of 
what has been described as a national meth epidemic.
    Methamphetamine is a very potent and highly addictive 
stimulant drug. It has very limited medical use, and as a 
Schedule II controlled substance, it can be obtained legally 
only by prescription. Meth can be snorted, swallowed, injected 
or smoked, and it is frequently taken in combination with other 
drugs.
    In contrast to cocaine, which is quickly removed and almost 
completely metabolized in the body, methamphetamine has a much 
longer duration of action and a larger percentage of the drug 
remains unchanged in the body. This results in prolonged 
stimulant effects.
    Some meth users experience psychoses that persist months 
after the drug has been stopped. Also because methamphetamine 
affects the contraction of blood vessels, it can result in 
heart attacks and strokes in relatively young patients. Meth 
use is also linked to risky sexual behaviors, increasing the 
risk for transmission of infectious diseases, including HIV. 
Like other intravenous drug users, those who inject the drug 
risk contracting HIV when they share contaminated equipment, 
and methamphetamine's psychological effects may also increase 
the likelihood of HIV transmission and accelerate its 
progression.
    According to the 2004 National Survey on Drug Use and 
Health, nearly 12 million Americans have used methamphetamine 
at least once. NIDA has characterized the abuse of 
methamphetamine as an extremely serious and growing problem. 
Once concentrated in a few western States, meth use has 
expanded geographically and it is moving to more diverse 
populations. The fact that meth can be manufactured from 
chemical derived from retail products has contributed to the 
spread of small, clandestine labs. And these labs contribute to 
a set of additional problems, including costly environmental 
damage and child endangerment and neglect.
    The resulting burden on State and local law enforcement and 
social services agencies has been enormous. According to NIDA, 
methamphetamine addiction can be treated successfully using 
currently available behavior treatments. NIDA is currently 
investing in the development of new medications for 
methamphetamine addiction.
    NIDA also is pursuing the development of an immunization 
strategy for the treatment of methamphetamine overdose. In 
general, studies show that clinically appropriate treatment, 
provided by qualified and trained staff, is effective in 
stopping methamphetamine use and that outcomes from meth users 
are comparable to outcomes for cocaine and heroin users.
    It is vitally important that we expand funding for programs 
that support effective treatment services for meth addiction. 
These programs include the Substance Abuse Prevention and 
Treatment block grant, the foundation of our public treatment 
funding infrastructure, and programs of regional and national 
significance, such as targeted capacity expansion.
    It is important to note that States have achieved 
commendable results in block grant funds. According to the 
National Association of State Alcohol and Drug Abuse Directors, 
in Colorado 80 percent of methamphetamine users were abstinent 
at discharge in fiscal year 2003. In Iowa, a 2003 study found 
that 71.2 percent of methamphetamine users were abstinent 6 
months after treatment. And in Tennessee, over 65 percent of 
methamphetamine users were abstinent 6 months after treatment.
    Mr. Chairman, we must also provide adequate funding to 
support the vital research efforts of NIDA, which has devoted 
an increasing amount of funding to meth research. 
Unfortunately, as I have noted previously, the administration 
has chosen to devote a declining percentage of drug control 
funding to demand reduction programs over the past 6 years. I 
hope that today's hearing will increase the recognition of the 
importance of treatment in addressing addiction and related 
problems and in turn, to a reversal of the trend toward de-
emphasizing domestic prevention and treatment relative to 
supply reduction efforts abroad.
    I anxiously look forward to the testimony of our witnesses, 
and with that, Mr. Chairman, I yield back.
    Mr. Souder. I thank the gentleman.
    Mr. McHenry, the vice chairman of the subcommittee.
    Mr. McHenry. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman and ranking member, for putting 
together this important hearing. I am so glad we have a 
distinguished panel before us today.
    In my part of the country, in western North Carolina, we 
have been severely affected by methamphetamine use. And now, 
now that State law and Federal law is curbing the availability 
of it, we are still dealing with the ongoing repercussions of 
how to treat people that have been addicted to it. It is such a 
harmful, destructive and nasty drug that we as a society and as 
Government policymakers, we have to make sure that we have the 
right policies in place, and make sure that our treatment 
dollars are going in the right direction, and that there are 
treatment dollars available to effect change.
    So it is important that as a committee we actually look at 
the availability of and effectiveness of these treatment 
programs. Current treatment initiatives in western North 
Carolina have shown strong results. Actually, in a recent study 
from 2002 to 2005, in my region alone, meth admissions to 
treatment programs have doubled, just in 3 short years. It 
seems, now that is being experienced around this country, 
largely in rural areas.
    So it is important that we look at the best way to treat 
these meth addicts. One example in my district is through the 
Matrix Model. From what I understand, it is the only evidence-
based program for attacking meth addiction. And it has been 
effective. I don't think it has been largely understood in the 
community, but I look forward to hearing your testimony today 
about what we should be doing here in Washington and in our 
communities to make sure that the treatment programs are 
available.
    I appreciate your taking the time to be here to make your 
voices heard here in Washington, DC, with this important 
committee which we serve on. Thank you again, Mr. Chairman, for 
holding this hearing, and for your ongoing fight to make sure 
that we have effective drug control and elimination, as well as 
treatment programs throughout this country.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you. I want to clarify briefly Mr. 
Cummings' point, because I think he raised a very fair point. 
There is a certain amount of sensitivity that we treat 
methamphetamine differently right now because it is 
predominantly white users and different than urban areas. I 
think it is very important.
    In the title here, I would refer to the crack epidemic that 
hit Fort Wayne as an epidemic with victims. At the same time, 
this isn't like a hurricane where individuals just get hit. 
They also choose to participate. So you are simultaneously a 
victim and somebody who made a personal decision to do this.
    I absolutely believe that any distinctions that we would 
have that would be artificially different, we shouldn't refer 
to one group as being overwhelmed by a tide and another group 
bringing it upon themselves. In my hometown, there is very 
little meth in my hometown of Fort Wayne. It is around us, but 
it is crack, it is heroin, and it is marijuana and occasionally 
oxycontin. And we need to make sure that we treat everybody, 
regardless of their racial background, regardless of their 
income, the same way, whether it is in treatment or what.
    We argue that in fact the administration has been less 
responsive to rural areas in the meth thing, and we focused on 
that here. But this committee will continue long term to make 
sure that we focus on all the different narcotics.
    Mr. Cummings. Will the chairman yield?
    Mr. Souder. Yes.
    Mr. Cummings. Mr. Chairman, I just want to take a moment to 
thank you for saying what you just said. That means a lot to me 
personally, and I am sure it means a lot to anybody who is 
listening to this hearing. Thank you.
    Mr. Souder. We have seen our urban areas ravaged, and we 
need to work together on how to rebuild this, and suburban 
families destroyed and rural areas. All these things need to be 
a focus of this committee.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record, and that any answers to written questions provided by 
the witnesses also be included in the record. Without 
objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, so ordered.
    Our first panel is composed of the Honorable Bertha Madras, 
Deputy Director for Demand Reduction of ONDCP; the Honorable 
Dr. Nora Volkow, Director of the National Institute for Drug 
Abuse, National Institutes of Health; and the Honorable Charles 
Curie, Administrator of the Substance and Mental Health 
Services Administration, Department of Health and Human 
Services. Mr. Curie will also be joined by Dr. Westley Clark, 
Director of the Center for Substance Abuse Treatment at SAMHSA.
    Would each of you stand and raise your right hands, and I 
will swear you in?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Thank you for being with us today, again. I think this 
might be your first time, Ms. Madras. We met in my office, but 
welcome to our committee, and Dr. Volkow and Mr. Curie have 
been here many times. We very much appreciate your leadership 
in this issue, as well as Dr. Clark has been here numerous 
times.
    Ms. Madras.

STATEMENTS OF BERTHA MADRAS, DEPUTY DIRECTOR, OFFICE OF DEMAND 
  REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY; NORA D. 
   VOLKOW, M.D., DIRECTOR, NATIONAL INSTITUTE ON DRUG ABUSE, 
 NATIONAL INSTITUTES OF HEALTH, U.S. DEPARTMENT OF HEALTH AND 
     HUMAN SERVICES; AND CHARLES G. CURIE, M.A., A.C.S.W., 
   ADMINISTRATOR, SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES 
 ADMINISTRATION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
   ACCOMPANIED BY H. WESTLEY CLARK, M.D., J.D., M.P.H., CAS, 
     FASAM, DIRECTOR, CENTER FOR SUBSTANCE ABUSE TREATMENT

                   STATEMENT OF BERTHA MADRAS

    Ms. Madras. Chairman Souder, Ranking Member Cummings and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the Federal 
response to treatment needs of populations affected by 
methamphetamine.
    As a chemical, meth is a serious, unique national problem. 
It is one of the few drugs that can be synthesized with little 
expertise or equipment. Its production can result in 
significant personal and environmental contamination.
    As a drug, meth is one of our greatest public health 
challenges. It is highly addictive, it can promote brain 
damage, its heavy medical and psychological toll on individuals 
can impact their children, families, communities and the 
criminal justice system at a national level.
    With cooperative efforts of the administration and 
Congress, there is a historic 19 percent reduction in teenage 
drug use over the past 4 years. Of specific reference to 
methamphetamine, there is at least a 30 percent reduction in 
the number of meth lab incidents, in meth-positive workplace 
tests, in lifetime meth use among youths over the past 2 years. 
There is also a significant increase in 12th graders who 
disapprove of using amphetamines.
    The administration's recently released Synthetic Drug 
Control Strategy outlines key meth treatment initiatives. A 15 
percent reduction in meth use, a 15 percent reduction in 
prescription drug use and a 25 percent reduction in domestic 
meth labs over the next 3 years are the stated goals.
    What are the meth treatment programs that are available? In 
general, 25 percent of the Federal budget is targeted to 
treatment. Four major programs can impact meth abuse and 
addiction treatment. The first is the Substance Abuse 
Prevention and Treatment block grants. The 2007 budget requests 
$1.7 billion for the block grant. The funds are for treatment 
providers, many of whom provide treatment for abuse and 
dependence on meth. States that elect to prioritize meth 
treatment can target the money for this population.
    A second initiative are programs of regional and national 
significance. The 2007 budget requests $375 million for 
effective screening and treatment programs, which include 
Access to Recovery and Screening, Brief Intervention and 
Referral to Treatment. These discretionary grants provide 
flexibility and services for regional and rural needs.
    Access to Recovery, the 2007 budget requests $98 million. 
There is a 25 percent setaside specifically for ATR meth 
initiative, and $5.4 million targets programs in rural areas. 
ATR funds essential recovery support services, not generally 
reimbursable through conventional Federal treatment resources. 
For example, meth addicts require intensive relapse prevention 
training, which is covered by ATR.
    The third program is Screening, Brief Intervention and 
Referral to Treatment. The 2007 budget requests $31.2 million. 
This program provides grants for effective early detection and 
intervention in general medical settings. It is positioned to 
identify meth users that enter hospital or clinical 
environments, seeking treatment for reasons other than for meth 
abuse.
    The fourth program are drug courts. The 2007 budget request 
$69 million for drug court programs, a $59 million increase 
over the 2006 enacted level. Drug courts effectively divert 
non-violent, low-level offenders away from prison into 
supervised treatment and reduce re-arrest rates by over 50 
percent.
    Of the 2005 adult drug court planning initiatives, the 
National Drug Court Institute estimated that 92 percent were 
rural. Of these, a significant proportion of offenses that they 
will treat are meth-related. This cohort can be steered into 
treatment by the drug courts.
    In conclusion, I would like to state that substance abuse 
treatment works, and so effectively stated by Ranking Member 
Cummings, treatment and recovery for meth addiction are 
feasible and possible. Treatment programs are flexible and 
adaptable to meth. The Screening, Brief Intervention and 
Referral to Treatment and Drug Courts identify and help meth 
abusers or addicts who do not come forward for treatment, but 
come forward for other reasons, medical and/or legal, and then 
they are steered into treatment. And the Access to Recovery and 
block grants provide the treatment.
    The President's drug control policy is characterized by 
vigilance, flexibility, adaptability and innovative strategies 
to address emerging drug threats. Our ultimate objective is to 
eradicate meth use and provide meth users the opportunity for a 
renaissance in their lives.
    Thank you, and I welcome questions from the subcommittee.
    Mr. Souder. Thank you.
    Dr. Volkow.

               STATEMENT OF NORA D. VOLKOW, M.D.

    Dr. Volkow. Good afternoon. It is a privilege for me to be 
here, and to be given the opportunity to present how science 
can help us combat the problem of drug addiction.
    As Director of the National Institute of Drug Abuse, that 
funds 85 percent of all of the research related to drugs, we 
have long recognized the problem of methamphetamine. We 
recognize it not just because it is a very potent stimulant 
drug, but because of the data showing that it is one of the 
most toxic of illicit drugs.
    So as the Director of this Institute, I see it as our 
responsibility to develop the science and the knowledge that 
will allow us to combat this problem.
    What do we know about methamphetamine? We have learned 
significantly over the past 5 years, actually past 20 years. As 
Mr. Cummings was mentioning, we recognize it as one of the most 
potent of the stimulant drugs, probably it is the most potent. 
We know that methamphetamine can be taken by smoke, snort, 
injection. And what we have seen is that over the past years, 
we have seen a shift from the use of methamphetamine through 
the routes of administration that are not just the most toxic, 
but also the most addictive, that is smoking and injection. And 
this in turn may account in part for the increase in the 
numbers of medical emergencies, as well as treatment-seeking 
addiction from the use of methamphetamine.
    We know that methamphetamine, like other drugs of abuse, 
predominantly affects dopamine cells, increasing the 
concentration of this chemical in the brain, this chemical that 
is crucial in allowing us to perceive pleasure, regulate and 
motivate our behavior. This chemical is also crucial in 
allowing us to think properly.
    It is believed that the effects of drugs of abuse, all of 
them, to increase dopamine is the reason why they can produce 
addiction. Of all the drugs of abuse that we know, 
methamphetamine is the one that is most potent in increasing 
dopamine in the brain. Indeed, it is at least three times more 
effective than cocaine in increasing dopamine in the brain. And 
it is believed that this may be one of the reasons about why it 
is also so addictive.
    Indeed, from human studies, we know that people that get 
exposed to methamphetamine may become addicted even faster than 
when they take cocaine. In the case of methamphetamine, 
addiction has been reported to occur 1 to 2 years after 
initiation of use, in contrast to an average of 3 years for the 
case of cocaine.
    The large increases in dopamine induced by methamphetamine 
are not only linked to its highly addictive potential, but also 
its toxic properties. These large increases in dopamine damage 
the dopamine cells themselves, and the consequences of course 
relate to the function of dopamine. These individuals are less 
able to experience pleasure from natural reinforcers. But they 
also affect their ability to exert cognitive control and the 
ability to think clearly.
    However, one of the good news in this is that some of these 
changes appear to be reverted with protracted detoxification. 
This is extraordinarily important, because it further 
highlights the importance of initiating treatment and of 
initiating treatment at early stages, so that we can maximize 
the recovery of that individual.
    As mentioned by Mr. Cummings, there are many other toxic 
effects of methamphetamine. Methamphetamine does not just go 
into your brain, it does damage to the blood vessels, so you 
can just end up with a stroke and be paralyzed. But it also 
affects other organs. One of the ones that has attracted a lot 
of attention is seeing young individuals with myocardial 
infection because of the toxic effects of methamphetamine to 
the myocardium.
    Because of these adverse effects, as was mentioned, many 
people believe that methamphetamine cannot be treated, or that 
it is extremely difficult to treat. And yet, we know, as has 
been mentioned before, that it can be treated. And in fact, the 
comparisons with cocaine show similar rates of success.
    There are several programs, behavioral interventions, that 
have been shown to be effective in the treatment of 
methamphetamine addiction. You are going to be hearing 
specifically from Dr. Rawson on the Matrix Model, which has 
been very successful. There are other interventions, 
motivational incentive interventions, prevention of relapse, 
that have also shown very positive results.
    However, one of the things that we need to recognize in 
order to be successful in the treatment of methamphetamine, as 
is the case for all other drugs of abuse, is that addiction is 
a chronic disease, which means that treatment is not going to 
be a one shot and you are going to be cured. It will require 
repeated treatments, and relapse does not necessarily mean 
failure of treatment. It needs that treatment needs to be 
reinstituted. But it highlights the importance of continued 
interventions.
    At NIDA, as I say, we feel an obligation to develop also 
not just better behavioral interventions, but also medications 
that can help those afflicted with addiction. In the case of 
methamphetamine, we have some very promising compounds, both 
from the results in the laboratory animals, but also from pilot 
studies in humans. This includes, for example, anti-epileptic 
medications, such as GVG or topiramate, which has been actually 
showing very promising results in clinical studies on 
methamphetamine abusers.
    Certain anti-depressant medications, such as Welbutrin, 
which is currently also used for the treatment of nicotine 
addiction, also has shown positive signals in methamphetamine 
treatment. And finally, we are also evaluating the use of 
medications that can improve alertness and cognitive 
performance, such as modafinil.
    As mentioned by Mr. Cummings, we are also developing 
immunization strategies, such as monoclonal antibodies, that 
can be used for those that are suffering from overdose, and 
thus can be acutely saved. But we are also investigating the 
feasibility of developing a vaccine for methamphetamine that 
can prevent relapse, using similar strategies as those used for 
the vaccine for cocaine and for nicotine, which also are 
showing some very promising results.
    NIDA indeed has long recognized the danger of 
methamphetamine abuse and has actively supported research on 
these and related drugs. This research continues to help us 
elucidate the effects of these drugs in the brain, which is 
very important, because of course this leads us to new targets 
for medication and treatment. At the same time, we can never, 
never under-emphasize the importance of this knowledge to 
develop better prevention strategies.
    Thank you for allowing me to share this information with 
you, and I will be happy to answer any questions you may have.
    Mr. Souder. Thank you very much.
    The last statement of this panel is from Mr. Charles Curie. 
I also want to commend you for your years of service in 
Pennsylvania and then at the national level for the last 5 
years. I look forward to working with you as you move on to 
other endeavors. I am sure you will continue to stay involved 
in this field, but we thank you very much for your leadership.

                 STATEMENT OF CHARLES G. CURIE

    Mr. Curie. Thank you, Mr. Chairman, for those kind words, 
and also Ranking Member Cummings, for your words earlier. They 
mean quite a bit. The partnership that we have had has been 
invaluable. I appreciate this opportunity to testify one last 
time in my current capacity to this very important 
subcommittee.
    Mr. Chairman and Ranking Member Cummings, Mr. McHenry, I am 
Charles Curie, the Administrator of the Substance Abuse and 
Mental Health Services Administration [SAMHSA], within the U.S. 
Department of Health and Human Services. I am pleased to say 
accompanying me today is Dr. Westley Clark, the Director for 
our Center for Substance Abuse Treatment, the able Director, 
very able Director, within SAMHSA.
    And I am pleased to be able to present, with my colleagues 
Dr. Madras and my long-term colleague and friend, Dr. Nora 
Volkow, SAMHSA's role in addressing the methamphetamine 
addiction crisis that this country faces. First, I also would 
ask that my written testimony be placed in the record, which is 
much more detailed than my oral testimony. What I would like to 
focus on in my oral testimony is our role to more effectively 
address this issue.
    To efficiently align and focus our prevention resources, 
and I would like to begin with prevention, SAMHSA launched the 
Strategic Prevention Framework in 2004. The Framework advances 
community efforts to prevent drug use, using a risk and 
protective factor approach. Whether we speak about abstinence 
or rejecting drugs, including meth, tobacco, alcohol, or 
promoting exercise and a healthy diet, we are really working 
toward the same objective: reducing risk factors that exist in 
a community and exist in an individual's life and promoting 
protective factors.
    By the end of this fiscal year, nearly 40 States will be 
implementing this new approach. I am pleased to say that there 
are many States that have taken SPF and have definitely aligned 
it in addressing the methamphetamine issue. Indiana is one 
State that I would point out. In presenting the award to 
Governor Daniels in Indianapolis, on the Strategic Prevention 
Framework, he made it a point to say that this was going to be 
a central element in addressing the meth issue in Indiana. 
Again, we shaped Strategic Prevention Framework so that it will 
address the local needs and work in partnership to address 
those priority needs that are identified locally and by States.
    The success of the Framework rests in large part on the 
tremendous work that comes from grass roots community anti-drug 
coalitions. The anti-drug coalition effort is very much tied 
to, and we view it as part and parcel of Strategic Prevention 
Framework. That is why we will continue to work with ONDCP to 
administer the Drug-Free Communities Program, and this program 
currently supports approximately 765 community coalitions 
across the country.
    In terms of treatment, SAMHSA supports treatment, and you 
heard Dr. Madras highlight several of those efforts. Again, 
primarily our substance abuse prevention and treatment block 
grant is a major vehicle, and is foundational, as has been 
mentioned here before. Appropriated at nearly $1.8 billion, the 
block grant provides 40 percent of all State funding for public 
substance abuse services.
    We also support treatment through competitive grants. 
Public and non-private entities apply directly to SAMHSA for 
targeted treatment funds. Since the subcommittee is well 
acquainted with both the block grant and our discretionary 
grant portfolio, let me discuss one program in particular. In 
his 2003 State of the Union address, President Bush resolved to 
help people with a drug problem who sought treatment but could 
not find it. He proposed Access to Recovery [ATR], a new 
consumer-driven approach for attaining and obtaining treatment 
and sustaining recovery through a State-run voucher program.
    State interest in Access to Recovery was overwhelming. 
Sixty-six States, territories and tribal organizations applied, 
and competed for $99 million in grants in fiscal year 2004. We 
funded grants to 14 States and one tribal organization in 
August 2004. I am pleased to say that again, there were States 
who identified methamphetamine as their No. 1 growing problem, 
Tennessee and Wyoming, and they targeted their Access to 
Recovery funds to address that issue.
    Because the need for treatment is great, as methamphetamine 
treatment need alone has demonstrated, President Bush proposed 
$100 million for a new cycle of Access to Recovery grants in 
the 2007 request. Of that, $25 million will be focused 
exclusively on methamphetamine. ATR's use of vouchers, coupled 
with the State flexibility and executive discretion to target 
emerging drug trends such as meth, is creating profound 
positive change in substance abuse treatment financing and 
service delivery across the Nation. In short, the ATR 
initiative has helped all of us operationalize recovery in both 
public policy and public financing.
    I am also pleased to point out that while in fiscal year 
2006 we had $19 million in our budget targeted exclusively 
toward methamphetamine in terms of treatment and prevention, in 
our proposed 2007 budget that number is $34 million, in terms 
of increased emphasis and effort toward methamphetamine.
    To help ensure the latest science-based services are being 
provided to people with substance abuse disorders, a true 
partnership has emerged between SAMHSA and the National 
Institute on Drug Abuse [NIDA]. The result of this 
collaboration was the result of a development of a treatment 
strategy for methamphetamine addiction. The Matrix Model, which 
Congressman McHenry mentioned earlier, and you will be hearing 
more about from Dr. Rawson, and other cognitive behavioral 
approaches, are available in a set of two DVDs produced by our 
Pacific Southwest Addiction Technology Transfer Center. Dr. 
Clark has them. They are on sale in the lobby after the 
hearing. [Laughter.]
    And our treatment improvement protocol [TIP] No. 33, the 
treatment for stimulant use disorders, again, giving direction 
on methamphetamine.
    Our national network of Addiction Technology Transfer 
Centers also are critical in our efforts to provide training, 
workshops and conferences to the field regarding 
methamphetamine. I want to stress that these entities are 
available to States, to treatment providers in their region, to 
have the resources and technical assistance necessary in order 
to gain the expertise and the knowledge around address 
methamphetamine.
    Recently, SAMHSA financed two conferences on 
methamphetamine for States. SAMHSA paid for States to bring 15 
people each, including State and local officials and providers, 
to hear experts in the field of methamphetamine treatment and 
research, and a well-received and much-needed opportunity to 
learn and share information about methamphetamine.
    In conclusion, we are striving to do our part at SAMHSA to 
make methamphetamine and continue to make it the priority it 
needs to be, especially in areas of this country where, as you 
say, Mr. Chairman, the intensity of the consequences of 
methamphetamine are overwhelming. We have been building 
systemic change also, so that no matter what drug trend emerges 
in the future, because we don't know what is going to emerge as 
we go along, and we need to be agile, we need to be flexible, 
we need to be ready, that States and communities will be 
equipped to address it immediately and effectively. Our goal is 
always to try to reach it before it hits a crisis level.
    Mr. Chairman, Mr. Cummings, Mr. McHenry, Ms. Foxx, as has 
been mentioned before, I would like to ask, if I have a few 
additional moments, to discuss this being my last appearance in 
this capacity before you. As you know, I have submitted my 
resignation to the President and will be leaving my current 
post in SAMHSA on August 5th. I want to express my appreciation 
to the dedication of all of you. Mr. Chairman, Mr. Cummings, we 
have been in many hearings together, field hearings. And I have 
definitely appreciated your ongoing leadership and unwavering 
support for those people who have addictive disease in their 
life and who are looking to attain and sustain recovery in the 
pathways you give.
    This committee has stood strong in terms of assuring that 
addiction is addressed in this country. At times when the 
public interest in addiction has faded and comes in waves, you 
have been unwavering. You have kept it at the top of the list 
of priorities. In my 10 years as Administrator of SAMHSA, I 
have also found this subcommittee to be both supportive of what 
we are doing and at the same time appreciate your keeping our 
feet to the fire, appreciate you in terms of bringing, based on 
the data, what we need to be addressing. I think that is true 
partnership, and I think it has been invaluable to us, as one 
would expect from Congress.
    So it has been an honor working for you and with you. And 
it has been the highest privilege for me to be in this 
position. Your subcommittee has been one of the very, very 
great highlights of my tenure here. Thank you very much.
    Mr. Souder. Thank you very much for your comments. That is 
the best praise we have gotten from the executive branch and--
it is because you are leaving, I guess. [Laughter.]
    Nevertheless, it is appreciated.
    Let me ask a technical question first, and maybe Dr. Volkow 
or Dr. Clark and Ms. Madras, Mr. Curie, if any of you have any 
further comments on this. Are there medical differences 
between, in methamphetamine, it is really unusual, because we 
have two simultaneous tracks going on in the United States, the 
mom and pop labs where people are home cooking with their own 
chemicals, and the crystal meth that is the bulk of the users. 
The chaos it has caused and the political problem is greatest 
in the areas where it is doing environmental damage, they are 
blowing up families, they are tying up drug task forces all day 
long while they wait for somebody to come in. And the political 
pressure is on those individuals, and those individuals tend to 
be more predominantly rural.
    The crystal meth moves, some into some cities, particularly 
if it moves into cities like Minneapolis-St. Paul, Omaha, 
Portland, but we haven't seen massive intrusion into cities. 
But does the crystal meth behave on the brain differently than 
the home-cooked, and are the chemicals substantially different? 
Or does the same treatment process basically work for everybody 
who uses some form of methamphetamine?
    Dr. Volkow. One of the things, methamphetamine is a racemic 
mixture. A racemic mixture is when the compounds have a mirror 
image one to the other. The ``d'' version of it is the most 
potent. The methamphetamine that you get from home cooking, it 
has mostly d-methamphetamine, but there is a little bit of the 
l-methamphetamine, very small amounts, 5, 6 percent. Whereas 
the methamphetamine that is coming from abroad is 100 percent 
pure.
    Does this make a difference? I don't think it does. 
Actually, we are funding imaging studies to document the 
differences between these two compounds and we really don't see 
a difference.
    So based on the pharmacology itself, it is unlikely to have 
much of a difference. Your concern, of course, has to do more 
with impurities that may come in the manufacturing of the 
methamphetamine. That is where my concern would come in terms 
of treating these patients, or what I would expect would happen 
to them.
    Mr. Souder. Do you expect, and if anybody else has any 
comment, you can pick it up in the followup here, do you 
expect, the States took the lead and started to control 
pseudoephedrine, which has been the fundamental ingredient in 
the home cooking. That partly pushed people over to crystal 
meth, as we have seen in Oklahoma, started to see in Oregon, 
some degree pushing people to the Internet.
    We have heard rumors, one I believe was in the hearing in 
North Carolina, that people have looked for, obviously, and the 
question is, are they finding substitute ingredients, things 
other than pseudoephedrine that they can mix in and emulate 
methamphetamine? Do you believe that is possible, or do you 
believe that by controlling the pseudoephedrine we in fact will 
shut down the home cooking?
    Dr. Volkow. There is no doubt that control of the 
pseudoephedrine has had a dramatic impact on the number of 
small laboratories. Unfortunately, that has been taken over by 
the importation of methamphetamine from abroad, including 
Mexico. Could there be other sources for producing 
methamphetamine? To my knowledge, right now, I do not know of 
any.
    But I am not a chemist, and chemists can be incredibly 
creative. So I do not know. My colleague, Dr. Madras, who is 
very much a chemist, may be able to shed some light on that.
    Ms. Madras. With regard to the precursors, ephedrine well 
could serve as a precursor. So could another compound called 
phenethylamine. I do think, I certainly agree with my 
colleague, Dr. Volkow, that creativity is one of the major 
problems we face in the chemical world. Because the creativity, 
for example, with regard to cocaine, is what created crack 
cocaine versus cocaine hydrochloride. And there was an enormous 
difference. The basic molecule cocaine was the same. But crack 
cocaine enabled cocaine to be smoked. And that enabled a rapid 
bolus of cocaine to enter the brain. Whereas cocaine 
hydrochloride, which is just a different salt form, was not 
smokeable, because if you heated it up, the entire molecule 
fell apart.
    So creative chemistry is what we always have to worry 
about. And I don't mean creative in a very positive sense.
    Mr. Souder. Dr. Clark, did you have a comment?
    Dr. Clark. Not only must we deal with the issue of the 
precursors, you also have to deal with the issues of 
unscrupulous dealers, if you will. We recently had an episode 
of phentenyl added to heroin, dealers may choose to add 
unrelated substances to products and use that to advance their 
economic interests.
    So what Dr. Volkow and Dr. Madras said is of critical 
importance, and we also need to look at some recent behavior in 
terms of what drug gangs have done. The importation issue is a 
major issue, but also unscrupulous behavior is also an evolving 
issue.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. When I talk to young women who are crack 
addicts, they tell me that the addiction is very quick. And one 
of you mentioned, I think it may have been you, Mr. Curie, how 
fast it is, how long it takes for one type of drug, for you to 
become addicted, and then how slow it may be for others. I was 
just wondering, when you compare crack cocaine to 
methamphetamine, is that a rapid addiction situation? Because I 
hear that a lot, young women who say they tried crack cocaine 
and thought it would just be a one-time thing, next thing you 
know, they are on it. Particularly from women. I am just 
curious.
    Dr. Volkow. I had mentioned that, and indeed, there was a 
story that specifically compared the course from occasional use 
to compulsive use between cocaine abusers and methamphetamine 
abusers. That story did not distinguish between those subjects 
that were taking cocaine, as cocaine, whether it is 
hydrochloride snorted or injected, versus those that took it 
smoked. Effectively, as I mentioned, the routes of 
administration that are the most dangerous are the smoked and 
the injected. The smoked is the crack cocaine. But injected 
cocaine is also highly addictive.
    And what you are saying is absolutely correct, and the 
transition from snorting to smoking is what is actually 
associated with the fast development into the addictive 
process. So to address the question correctly, one would have 
to compare the transition from smoking occasionally. But once 
you start to smoke occasionally cocaine, you become very fast 
regular. And that I do not have knowledge of any data. I was 
actually trying to find out if there was. So I do not know of a 
study that specifically has addressed that.
    Mr. Cummings. Mr. Curie, let me ask you this. You had 
talked about, you said you were talking about risk factors in 
communities, and you said you had worked closely, it was 
important to have a close relationship with the anti-drug 
coalitions with regard to methamphetamine. This is what we are 
talking about, of course.
    What is it that they do that helps so much with regard to 
methamphetamine, and is that any different than other drugs? In 
other words, what they do? Because we have been very strong 
proponents of the anti-drug coalitions. We have been fighting 
pretty big time. And I just wanted to know how that affects it.
    Mr. Curie. I think methamphetamine is the classic example 
of why a community anti-drug coalition is so essential. Because 
the coalition gives an opportunity to form leadership and focus 
on the particular substance abuse, drug issues that are 
existing in that particular community. Strategic Prevention 
Framework, the reason that it fits so well with the anti-drug 
coalitions, is what we expect communities to do is to first 
assess all the resources that community already has going 
toward drug prevention efforts, then embark upon the process of 
assessing what are the risk factors in that community, is it a 
transient community, is it a community that doesn't have a 
sense of neighborhood, of connectedness. All those things add 
to risk factors that could promote substance abuse. There is a 
list of many others.
    Once they have embarked upon a process of assessing their 
risk factors that exist, as well as protective factors that can 
be existing in that community, they can then make collective 
decisions. And again, the ideal coalition not only brings 
together concerned parents and school systems, but city 
government, brings together a range of non-profit 
organizations, brings together Boys and Girls Club and all 
those entities that work together.
    They can make informed decisions. And we have a list of a 
registry of effective programs. Communities that Care has a 
list of evidence-based programs for prevention, and they can 
actually begin to make decisions to invest their prevention 
dollars into addressing those risk factors. If methamphetamine 
is really the emerging problem in a community or is a problem 
and it is overwhelming the resources, they can really put an 
emphasis on that locally, and we have again technical 
assistance and resources to help them do that.
    But the coalitions really give leadership and life and 
voice and focus to combating and give that consistent voice to 
combating the drug problem in the community.
    Mr. Cummings. You also gave some stats on Access to 
Recovery. I think you said something like 66 States and 
jurisdictions requested funding, 14 of them got it. I just like 
the block grant situation so much better. When you tell me that 
66 entities applied and 14 got it, that doesn't, I mean, that 
means we have quite a few folks, 52, to be exact, out there 
saying, what about us? And then I think you mentioned too Iowa 
and another State that was geared toward methamphetamine, 
Tennessee, I think you said.
    Mr. Curie. Right.
    Mr. Cummings. So would you consider that kind of 
competition to get 14 out of 66, when people are having all 
these problems, if you had to have a choice, would you rather 
see that in block grant or see that in that competitive grant?
    Mr. Curie. That is a great question. I think that first of 
all----
    Mr. Cummings. Since you are leaving, I guess it is safe for 
you to answer that. [Laughter.]
    Mr. Curie. I can say anything I want.
    Mr. Cummings. I wouldn't have asked you that if you weren't 
leaving.
    Mr. Curie. I support the President's proposed budget. And I 
do.
    I think the question you are asking is, where can we get 
the most value for our dollar in terms of addressing this 
issue.
    Mr. Cummings. That is right.
    Mr. Curie. If you go back to the original Access to 
Recovery proposal, the first time the President proposed it, it 
was for $200 million. So I think clearly we would say, we would 
agree, $100 million wasn't enough, $100 million is what was 
appropriated. If we would have had $200 million we probably 
could be in up to 30 States during that first cycle, which 
could have made a more tremendous difference.
    As we moved ahead, we proposed $200 million the second 
year, got $100 million. It has been staying at pretty much $100 
million. So clearly, I think the administration would be in 
agreement that you need to more, especially in that interest. 
You are exactly right, 66 States and territories were clamoring 
for it, and we were only able to make those awards.
    I think we would have been hopeful by now with the original 
Access to Recovery plan that we would have perhaps up to $300 
million to $400 million if you recall, I think our goal was to 
add significant amounts of additional dollars to the treatment 
budget, if you go back to the first year, the first term.
    Mr. Cummings. Right.
    Mr. Curie. I think that we could make a tremendous impact 
in an Access to Recovery approach, because a State would get an 
award of somewhere around $7 million to $8 million per year. If 
we put that same amount of money into the block grant, that 
gets dispersed, if we put like $100 million in the block grant, 
that gets dispersed over 50 States and the territories, so it 
makes less of an impact in States.
    So if we want to target particular problems and a State 
wants to make a case, that we want to use Access to Recovery 
dollars to battle methamphetamine, because in Indiana, for 
example, or as they did in Tennessee and Wyoming, meth is 
undercutting so many things in the lives of our people, we need 
to address it, they could make much of an impact with the $7.5 
million grant than if they end up getting an extra half a 
million in their block grant.
    So I think those are the types of issues that have to be 
under consideration in assessing.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman.
    A couple of things are happening in my State. First of all, 
we passed an effective meth bill in North Carolina at about the 
same time we passed Federal legislation here. And that has had 
an enormous effect on eliminating the small lapse in these 
rural communities in western North Carolina.
    Now, we certainly have a problem still because Tennessee 
doesn't have as strict of a law about pseudoephedrine as does 
North Carolina. So you have some traveling over the mountain 
across the lines. You also have those coming from South 
Carolina and Tennessee over into my district to buy Sudafed 
because of some of the restrictions and having it behind the 
counter. They are able to go to a half dozen CVS stores and buy 
three boxes of Sudafed.
    I talked to a police officer this weekend who deals with 
this, and he said that they treat Sudafed now like you would 
treat cocaine or marijuana. They hide it in their automobiles. 
It is a drug in and of itself and an enormous commodity for 
them to trade in.
    But having said all that, the issue that we are dealing 
with, because we have cut down on these labs so much, it is not 
the expense of the labs now, and the dealing with the property 
damage and the chemicals you have left. The expenses have 
migrated over to these meth addicts, who the law enforcement 
continually has to deal with. Because you can throw them in 
jail, and once they get back on the street, they are back on 
it.
    So that leads to the opening question for this hearing, 
which is treatment. So my question to the whole panel is, what 
type of partnerships do we need with law enforcement and with 
treatment facilities? Because it seems like there is a 
disconnect. Law enforcement wants to stem the demand. But I 
would like to hear your feedback on what we can do to stimulate 
that partnership.
    Ms. Madras. With pleasure. I think that drug courts offer a 
very ideal solution to some of the issues that you have raised. 
Drug courts offer a choice of treatment or prison for low level 
criminal offenders and certainly, this can be applied to 
methamphetamine addicts as well.
    What they do is partner the legal system with the treatment 
community and treatment providers. They have been extremely 
effective, and the interesting thing is that the re-arrest rate 
for people who have gone through the drug courts is much lower, 
considerably lower. A comparison figure is 54 to 60 percent re-
arrest rate for those who have not been treated compared with 
16 percent for those who have.
    Mr. McHenry. My State courts in North Carolina, we have a 
drug court. I have visited a drug court, and it is an amazing 
result that they have had in the community where this exists. 
The difficulty is actually getting what is pilot project in 
essence in North Carolina State courts and spreading that.
    The other issue is that all law enforcement now in my State 
wants Federal charges. And the Federal courts have not been as 
equipped as that drug court is. So beyond that, what else can 
you say? I would say that to all the panelists.
    Ms. Madras. In terms of the extending drug courts, the 
President's proposal is to increase the budget by more than $50 
million for drug courts because of proven efficacy----
    Mr. McHenry. Beyond drug courts.
    Ms. Madras. Beyond drug courts, I think the second issue is 
that screening people through medical systems is a very 
effective way of identifying people who have methamphetamine 
addictions and yet do not show up in any other venue. They do 
not appear for treatment, they do not appear in the criminal 
justice system.
    Mr. McHenry. My time is limited. Dr. Volkow, would you 
address that?
    Dr. Volkow. I am glad you are asking that question, because 
I think that we have an extraordinary opportunity through the 
criminal justice system to touch a very, very large range of 
drug-addicted people, including those on methamphetamine. The 
problem is that it is almost ubiquitous by its absence. So from 
day one when I took over, I started to recognize that there are 
very few prisons and jail systems in this country that 
institute treatment for drug addiction.
    Well, we have two different cultures, and you are picking 
them up. One of them is to protect and punish, and the other 
one is to treat and to rehabilitate. So the challenge is to 
bring it together. So we have a large initiative at NIDA, which 
we call NIDA Goes to Jail. It has a multi-pronged approach, 
which one of them is to start educating the judges about the 
problems of drug addiction, the effects as a disease, but very 
important, about the treatment and the treatment outcomes from 
the different perspectives.
    The other approach to it is how do you bring these 
treatments inside of this system that has been rejecting them. 
And it is not automatic. So we created a network of prison 
systems that combines the criminal justice system with the 
academicians to develop these treatments and apply them into 
the prison system, and very important, to follow these 
individuals once they leave the criminal systems. Because what 
research is showing is if you do not do the followup, then a 
lot of these benefits are lost.
    This is of course the only close partnership with the 
SAMHSA and the criminal justice system. But it is an 
extraordinary opportunity that if we don't use, not only is it 
going to be increasingly costing our Nation, but we are 
actually missing the opportunity of helping those that are 
afflicted, that unfortunately end up with criminal behavior and 
in prison.
    Mr. Curie. I might just quickly mention, I endorse 
everything that was just said. I think if you look at Cook 
County in Illinois, there is a clear belief there, I recommend 
the committee take a look at what is occurring there, if you 
haven't already. There is a philosophy emerging that every 
court needs to be a drug court. Eighty to 90 percent of the 
individuals in the criminal justice system, and this is why 
NIDA's project is so critical, have a drug and/or alcohol 
problem. Over 50 percent of the individuals who are arrested 
are under the influence at the time of arrest.
    And what we find is, and drug courts have demonstrated 
this, but what we find is that if people are engaged in 
treatment when they are in prison, then you have literally a 
captive audience, so you can force treatment there. And the 
continuity, which Nora stressed, is so critical for attaining 
recovery. Recidivism goes down.
    So I think again there is a lot we can do in growing drug 
courts, but I think the point you are making is we also need to 
do some urgent things now in the current justice system. I want 
to commend what I am finding in the justice system to be a real 
enlightenment in terms of more and more understanding, more and 
more reaching out for help and support. We have had Governors' 
summits on methamphetamine in which we had law enforcement, the 
judicial system, the community-based system of care, faith-
based community together. And those summits, I can give you a 
list of all the States where they have been held, and again, 
that heightens the awareness as well.
    So I think it is an ongoing process. I think it is bringing 
the models of what is working and making it more the norm in 
our prison and court system.
    Mr. McHenry. Thank you.
    Mr. Souder. Judge Kramer from Noble County, IN told me over 
the weekend that he was just going to convert to a drug court. 
It is not like the Federal Government has to all the time fund 
it. It is nice to have the extra Federal funding, but this is 
something that can be done, and the process is implemented if 
the people are committed.
    I wanted to ask a couple of other medically related 
questions. In looking at treatment for meth, does the reason 
the individual has chosen to take meth make a difference if the 
solutions are largely behavioral? For example, in some areas we 
have learned that meth usage is often driven for weight loss, 
particularly among women, it seems to be more prevalent there. 
In other areas, it may be truck drivers who are trying to stay 
awake. Others may be people working on a factory assembly line, 
trying to increase their piece work. Others may be just looking 
for a high of some sort.
    Does why you got involved in meth impact the treatment 
process?
    Dr. Volkow. Definitely. You are very perceptive here, 
because in general a lot of the community has always waited for 
the magic bullet that would cure the disease. They have been 
terribly disappointed.
    Well, it is not surprising, because if you do not address 
the issue that led a person to take the drug, that as you 
pointed out, in many instances is not just to get high, you are 
very unlikely to succeed in getting that person rehabilitated 
properly. Particularly cogent, for example, is those situations 
where a person may be driven to taking drugs as an attempt to 
auto-medicate an unrecognized psychiatric disorder.
    In the case of stimulants, for example, that may occur if 
you are depressed, or for example, also if you have a problem 
with attention deficit disorder. Why? Because when you take 
these drugs, you will temporarily feel better and perform 
better. However, with repeated administration, the problem gets 
compounded, because your mental disorder is not treated and can 
deteriorate. But you start to become addicted.
    So it is extraordinarily important. That is one of the 
things that research has shown about treatment, that it is a 
multi-pronged approach. Clearly, SAMHSA has followed that. You 
cannot just address this person is taking methamphetamine. You 
have to evaluate the uniqueness of the effects of 
methamphetamine in that person in each context and what drove 
them there.
    So what you are saying is extraordinarily important vis-a-
vis our ability to have a successful therapeutic intervention.
    Dr. Clark. That is one of the first things we do in a 
clinical situation, having treated methamphetamine addicts and 
others, you need to make sure you identify what the underlying 
issue is. One of the reasons we have a work release program at 
SAMHSA is because indeed, if the employer's environment, and we 
work with the DOT on workplace drug testing, which has proven 
to be very effective, if the employer's environment encourages 
the mis-use, in this case, of stimulants, then the person is 
being rewarded for mis-using stimulants.
    I had a patient who said, ``My job was to do emergency work 
when things fell. And I had to sometimes stay up for 72 hours. 
Nobody asked me how I could stay up for 72 hours.'' He was 
doing cocaine, in this case. But the fact of the matter is, the 
job provided incentives for the mis-use of a stimulant. And you 
are correct, truck drivers have that. If I get rewarded for 
long hours behind the wheel, then I am going to look for ways 
to do long hours behind the wheel. So the employers have to 
play a role in it. The vectors of value in a community have to 
be tied to recovery in order for recovery to have meaning.
    Ms. Madras. I would like to add, in terms of the causes, in 
the surveys that were done, not recently, but a while ago, more 
than 60 percent of the people who used methamphetamine took it 
initially because it was available. And that is a very 
important factor.
    The second issue that I think is important with regard to 
treatment outcomes is that the age of onset and the amount of 
use can have an enormous influence on whether or not treatment 
is successful, so that the earlier a child or an adolescent or 
a young adult is identified with regard to methamphetamine, a 
far higher probability that they will be successfully treated. 
And that is why I think that being able to identify people who 
don't show up with the methamphetamine problem, but show up 
sporadically in emergency rooms and trauma centers, or even in 
college screening, such as what our administration is planning 
with regard to the SBIRT Program, is going to have an enormous 
influence on catching people before they progress to addiction.
    Mr. Souder. One of the things that became apparent in major 
league baseball as we did the hearings in this room is that 
steroids, while a serious problem, amphetamines are more 
common. In fact, some baseball teams actually had the pills 
available in the locker rooms, not necessarily authorized by 
the team itself, but certainly hadn't shut it down through 
their training, and called them different names. We have been 
trying to address this question.
    Could you describe a little bit of the medical differences 
between amphetamines and methamphetamine and some of the range? 
Historically this has been called crank, it has had different 
names in its lifetime. Right now, everybody refers to it as 
methamphetamine. In the opening testimony we talked about the 
category of methamphetamine and a little bit of the medical 
differences that we are dealing with.
    Dr. Volkow. All of these drugs are considered stimulants, 
because they activate the sympathetic system, which is one that 
allows you do the fight-flight response. Within the stimulants, 
there are two categories, one represented by cocaine, and the 
other represented by amphetamine and methamphetamine. What is 
fascinating is in each one of these categories, you have a 
medication that is used extensively in treatment on children 
with attention deficit disorder.
    So what are the differences and the similarities? 
Amphetamine has been abused and continues to be a significant 
abuse problem in several countries of the world, such as Japan. 
So there is an epidemic of amphetamine abuse. It can be very 
addictive, and it also can be very toxic. And just like 
methamphetamine, it can produce psychosis.
    Now, how does amphetamine compare with methamphetamine, and 
why is it that we can still use amphetamine properly to treat 
children with attention deficit disorder? Well, to start with, 
when we treat, we use a route of administration that is much 
less addictive. We use oral administration and we regulate and 
titrate the doses. You never will administer an amphetamine for 
any other route than oral.
    Having said that, as I said, when you inject amphetamine, 
the same amphetamine that you give to children to treat 
attention deficit disorder, you can crush and inject. It can 
produce a very intense high, and it definitely is associated 
with addiction.
    Now, if you compare amphetamine and methamphetamine in 
terms, for example, they are quite similar pharmacologically. 
Methamphetamine is more potent than amphetamine itself, in its 
ability to increase dopamine as well, and its ability to 
increase noradrenaline, which is the other property that is 
associated with enhanced alertness that they were referring to. 
You need to stay awake for many hours, what are our kids doing 
in college? They are taking an amphetamine to study for their 
exams without having to read, and they are going to perform 
better. Why? Because it has neuradrenergic effects.
    Will methamphetamine do the same thing? Yes, it will. But 
it will be doing it for a longer period of time. So it is an 
issue of potency between methamphetamine and amphetamine. Both 
of them are highly dangerous. When abused inappropriately, 
amphetamine can be highly dangerous.
    Cocaine, on the other hand, is less potent than the 
amphetamines. But because it is very unique, it goes in and out 
of the brain very rapidly, it can lead to a repeated 
administration that can be incredibly dangerous. Also, cocaine, 
different from amphetamine and methamphetamine, has local 
anaesthetic effects. And that is particularly problematic vis-
a-vis toxicity, because it can lead much more easily to 
seizures. This is one of the reasons associated with medical 
emergencies with cocaine.
    So while they are similar, there are unique 
characteristics. And on top of them in terms of potency lies 
methamphetamine. And as Dr. Madras stated, one of the things 
that makes it also so incredibly problematic is that it is very 
easy to synthesize. That is where the move about 
pseudoephedrine becomes so very important, because as Dr. 
Madras said, and we have known that for many, many years, 
availability is one of the most important variables driving 
drug experimentation, which is of course the first step toward 
the path of addiction.
    Mr. Souder. One other question here that often have heard, 
well, let me ask two questions. One is that methamphetamine, 
more than we hear in other drugs, the users tend to be paranoic 
and behave differently as law enforcement approaches, more 
likely to be violent.
    As you were describing this with the different potentially 
co-occurring dependencies and masking other things, is it the 
drug that is causing the paranoia, or to some degree they were 
already paranoic, and it got exaggerated? In other words, a 
person who is more paranoic may be attracted to use this drug 
if they had a co-occurring dependency, such as ADD or other 
types of things.
    Dr. Volkow. You know, it is a fascinating question, but 
there is clear-cut evidence that amphetamines can produce 
psychosis. You can actually do it, they have done it in the 
past where they were doing experiments of giving some of these 
pharmacological agents to normal individuals. This was 
reported, high doses of amphetamine, not just methamphetamine, 
can produce psychosis. So to the question, if you are paranoid, 
are you more likely to take this stimulant drug, in fact, you 
are not. Because it can make you really, really sick.
    So when you have someone, for example, that has a 
vulnerability for psychosis and they take one of these drugs, 
they get very, very sick. So it becomes subversive. So the drug 
itself, what do we know about why that drug can produce 
psychosis and why is it so much more frequent than with 
cocaine? Because it can increase dopamine so much more than 
cocaine. That is one of the elements.
    The other element that is unique to amphetamine that does 
not happen with cocaine is that the target, that is, where the 
drug binds, which is a protein that is involved in recycling 
dopamine, so dopamine is liberated, but it is immediately 
removed. Cocaine and amphetamine and methamphetamine block it. 
But methamphetamine and amphetamine, cocaine does not do that, 
bring this protein inside the cell, decreasing its 
availability. And that appears to be long lasting.
    So what you have is, the protein is no longer there, even 
though the drug may not be there, and there is no recycling 
process, so dopamine stays longer. And that is really one of 
the reasons why it is also so much more frequent to see 
psychosis with methamphetamine than with cocaine.
    Mr. Souder. Ms. Madras, did you have a comment?
    Ms. Madras. Just to add to Dr. Volkow's excellent comments, 
in schizophrenia, which is the ultimate form of psychosis, a 
blockade of dopamine targets is what produces therapeutic 
benefit. So schizophrenia is characterized by psychosis with, 
in many cases, paranoia. The underlying theory is that 
schizophrenia is a disease where there is too much dopamine not 
necessarily being produced, but there is too much dopamine 
activity in the brain. And amphetamines parallel that effect by 
producing excess dopamine.
    So there is a very clear parallel between the two. In fact, 
emergency room physicians, if someone comes in with psychosis 
and they want to diagnose a person as being schizophrenic, they 
have to wait and make sure that they have not taken 
amphetamines in order to make the diagnosis.
    Mr. Souder. My last question is a direct followup on this, 
Mr. Curie has made his whole career on co-occurring 
dependencies. And this is the first hearing in all the hearings 
we have on meth, I think we have had 10 now, or more, in this 
subcommittee, where the subject of the co-occurring dependency 
may have led to somebody using. In other words, it isn't just 
that they want to get a faster piece rate or stay awake or get 
high, that some individuals may have actually kind of self-
prescribed this, because it masks their other symptoms, it may 
have actually made it worse.
    Is there a study to this effect? Is this common? Is it in 
certain areas of the country more? What are we looking at here? 
Because in fact, if it makes disease more severe, this is a 
potential, another type of the problem that we are tackling.
    Mr. Curie. I will make just a couple of general remarks and 
let the scientists go into more detail with that. I think first 
of all, stressing the fact that an addictive disease is its own 
disease, as well as mental illnesses, and there is a range of 
mental illnesses. And I think the key is the term co-occurring. 
Sometimes they do co-occur, and we have the data to demonstrate 
that. Many times when they do co-occur, what we have found in 
our systems is that we have failed those individuals, because 
we are either treating one or the other disorder instead of 
both, in a particular sort of way or acknowledging it. And many 
times, the disorders get worse if you are not treating both.
    So again, we know more today than ever before about that. I 
think in general, you do have situations where people may have 
an underlying bipolar disorder, schizophrenia that has been 
undiagnosed. And the use of drugs or substances has been a form 
of self-medication. You see that. And they may be treated for 
addiction. If that goes undiagnosed, it is likely that they are 
going to be going back with the medications.
    I think you just heard excellent explanations too that many 
people do not have an underlying mental illness, but because of 
the impact of the substances, psychosis did occur. So all those 
things need to be sorted out, but the key is I think us having 
an understanding in primary health care settings, in mental 
health settings and substance abuse settings, that we need to 
do an assessment around the co-occurring issue, and make sure 
any door is the right door to assure people are receiving the 
appropriate treatment at the appropriate level, depending on 
the nature of the co-occurring disorder.
    Mr. Souder. In any additional comment on that, could you 
also address if the drug can actually cause another psychosis, 
for example, will that last, even if they give up the drug? And 
then we have crossed the other direction? In other words, you 
had co-occurring, but then could actually the drug create a co-
occurring instance?
    Dr. Volkow. The question that you are asking is one that 
has been challenging the whole research community. For some 
there are some clearer answers than for others. It is clear 
evidence that certain drugs can induce an anxiety disorder, 
given an individual that otherwise would not develop it. The 
same thing with a conduct disorder.
    With respect to schizophrenia, this has been very 
controversial. There is evidence, this has been for many years, 
particularly from the European literature, showing that early 
exposure to cannabis can indeed increase the risk of 
schizophrenia. There is an elegant study that showed that it 
could actually trigger it in those individuals that have the 
genetic risk, that may or may not have gotten it if they had 
not smoked.
    So the consensus right now is that by itself, the drug has 
not been shown to produce a schizophrenia or a psychosis that 
is irreversible. That doesn't mean it doesn't happen. The 
overall consensus is that it is likely to produce it in those 
that may have the vulnerability, because of your genes.
    But again, what genes confer, what we know is the gene is 
not going to be a death sentence that you are going to get 
schizophrenia. What a gene gives you is a vulnerability that 
when, combined with the environmental factors, can determine 
whether you will develop the schizophrenia or not.
    One of the most important environmental factors 
contributing on whether you will develop the mental illness or 
not is the exposure to drugs. Dr. Madras made a comment that is 
extremely salient, which is the notion that early exposure to 
drugs in an vulnerable individual is particularly problematic. 
So if you have the vulnerability and get exposed, that 
increases your risk of developing depression, of developing 
anxiety, of developing psychosis.
    Ms. Madras. I think some of our best evidence in linking 
the use of drugs with ultimate consequences is with regard to 
alcohol. In a study that began in the 1940's and persists to 
this day, of a cohort of Harvard graduates, as compared with 
other workers in the Boston area, it was found that people who 
initiated alcohol use during their youth and adolescence and 
subsequently had a much higher incidence of depression 
consequently, than people who did not. That was true whether or 
not you graduated college or whether or not you did not go to 
college.
    So there are clear links. But some of the others with 
regard to amphetamine and methamphetamine, as Dr. Volkow said, 
they are more controversial. There is no question that acutely, 
drugs can induce a psychosis. But whether or not it is 
reversible I think remains to be determined.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Dr. Volkow, you earlier invoked the term 
``magic bullet.'' This Sunday's New York Times Magazine ran an 
article entitled ``An Anti-Addiction Pill.'' The article 
discusses Prometa, a drug treatment protocol for cocaine, 
alcohol and meth addiction, that is being marketed aggressively 
by a Los Angeles-based health care services management company 
called Hythiam. Some addiction medicine physicians who have 
administered this drug protocol have reported encouraging 
results in reducing anxiety and drug craving. But some 
scientists have expressed concerns about the aggressive 
marketing of the protocol without clinical investigation.
    Can you comment on that for a moment?
    Dr. Volkow. Yes, certainly, I will be happy to comment on 
it. In the field of drug addiction, it has been very, very 
difficult to change the culture to accept drug addiction as a 
disease. As you know, we are treated differently. The 
insurance, private insurance, do not cover for the treatment. 
Why? Because they say drug addiction treatment does not work.
    So it has become extraordinarily important for us to 
provide objective evidence of the effectiveness of treatment 
interventions. And it is harmful to the field to promote a 
treatment without that evidence, because it serves to 
propagate, if the treatment, when the studies are done 
properly, does not show effectiveness, it serves to propagate 
the sense that treatment does not work.
    So to my knowledge, and I have looked into the literature, 
there is no randomized study that has proven the efficacy of 
Prometa. There was a study that was recently reported last week 
in the committee on Problems of Drug Dependence meeting, where 
they showed positive results. However, that is an open trial, 
and where the placebo effect is likely to confound the results 
of that study.
    So as of now, there is not yet evidence of a randomized 
study that can attest for the efficacy of the treatment.
    Do I support the utilization of treatments that are not 
evidence-based? No, I do not.
    Mr. Cummings. What are the possibilities or probabilities 
of a pharmaceutical treatment for meth addiction analogous, 
say, to methadone? What is the situation there?
    Dr. Volkow. I am very confident, and I am not one of those 
people that just sort of says, to make a good feeling, that we 
will have----
    Mr. Cummings. I kind of got that impression. [Laughter.]
    Dr. Volkow. That we have some very promising compounds, if 
only we could accelerate it faster into the clinics, that we 
will be seeing a shift in the way of the treatments that we can 
offer to people that are addicted to methamphetamine.
    For many years, we were very much married to the concept of 
emulating the success with methadone, and now with 
buprenorphine for heroin. And as of now, that type of strategy, 
which is to provide a medication that actually accesses the 
same targets as the drug that is being abused, but with 
different properties, which has been so successful in heroin, 
as of yet have not yielded success for the treatment of 
methamphetamine overall.
    That doesn't mean it doesn't work. But what we are doing in 
the meantime, rather than just concentrating on that approach, 
we are in parallel checking other types of strategies that for 
example address, can we interfere with the memories that are 
formed when you become addicted to the drug, such that you do 
not desire the drug when you are exposed to it. The notion of 
the vaccine that will actually change and interfere with the 
ability of the drug to get into your brain as a mechanism of 
protecting you against relapsing, medications that can 
interfere with the responses of our body when we are stressed, 
which is one of the factors that lead people to relapse. Why? 
Because stress activates the same circuits that are activated 
by drugs. So it primes them, wanting you to want the drug.
    So that is the other medication strategies that we are 
looking for, while at the same time still keeping an eye on the 
possibility that perhaps a molecule may work. But as of now, I 
cannot tell you of any success in that particular type of 
strategy.
    Mr. Cummings. One of the things that I wonder about, and we 
have touched on it a bit here, is what causes one population to 
use a certain drug and another--these are all people that are 
trying to get high. And so I look and I see, and one thing may 
be access, in other words, if it is there and available. But it 
seems as if, and I am just wondering, is it something unique 
about methamphetamine, its nature, that draws people to it from 
the beginning, as opposed to cocaine? In other words, in the 
urban areas, I don't hear too much about methamphetamine in 
Baltimore. I am not saying it is not on its way or not nearby.
    But on the other hand, you go into the rural areas, and 
there it is. A lot of very, very good people come up with great 
backgrounds, the next thing you know, they are addicted. But it 
is almost like you can put a wall between one drug and another. 
I am just wondering, is there any particular person that is 
prone to use methamphetamine as opposed to cocaine or crack 
cocaine?
    Dr. Volkow. The reason why I jumped at your question is 
that you touched on something I have been obsessing now for 
several years. Because I think it is very important, to me, an 
opportunity to understand what may be protecting a certain 
population, specifically in the case of methamphetamine. What 
has been intriguing me is why there are such low rates in the 
African-American community.
    Now, you could say, and these are the responses that I got 
from people in the field, that it is perhaps of the market and 
the accessibility, that the urban territories are 
predominantly, they have strong markets to deal with cocaine. 
And so there is a pressure and an availability. Or there may be 
a culture that makes it negative, not acceptable.
    Yet at the same time, I cannot forget what we know from 
other sources of drug addiction. For example, smoking is also 
much less prevalent in the African-American population. And the 
question for many years, people said, well, it has to do with 
the way that kids are brought up in their families. But 
recently, for example, we have known that African-Americans 
have a gene that encodes for the protein that destroys 
nicotine, that does not do it very properly. And as a result of 
that, they cannot metabolize nicotine properly. And as a result 
of that, when they smoke, nicotine concentrations are much 
higher and become aversive.
    So this is a protection that helps decrease the number of 
people that become addicted, that will smoke cigarettes, but 
also the amount of cigarettes that they smoke. So I have always 
been very intrigued about that possibility. There is no data, 
so this is purely speculative. That yes, while environmental 
factors are extraordinarily important in addressing the 
question why one may favor one, not the other, there may be 
other biological factors, such as how do you excrete or 
metabolize the drug. And we know for example, that in African-
Americans, kids treated with amphetamines for attention deficit 
disorder require much lower doses. Why? Because they excrete is 
less.
    So it is plausible that it is a combination of factors, 
environmental and biological, that can determine the 
differences as we are seeing right now, specifically with the 
methamphetamine, that we are seeing very low rates of abuse.
    Mr. Souder. I need to do a followup with that, because that 
came up at one of our other hearings, where you made a similar 
reference. And in our field hearings, the home cookers clearly 
are in rural areas, partly because it can't be smelled as 
easily. That is why they are in the national forests and 
elsewhere, they can find the ingredients.
    But neither crystal meth nor the home-cooked meth has been 
very prevalent in the big cities. But in our hearing in 
Minneapolis, and you need to look at Minneapolis, because in 
Hennepin County, we have testimony from the drug court and I 
think it was the head of the State drug treatment, that in one 
neighborhood in Minneapolis, an African-American distribution 
organization switched to crystal meth, and all of a sudden, 60 
percent of the people hitting the emergency room and in the 
drug court were African-American.
    It isn't clear whether that sustained itself, whether it 
was a brief spurt because a distribution group changed. But 
that is the only hearing we have had in the country where we 
saw it hit an urban area and the distribution change all of a 
sudden in the whole city, one neighborhood took over the drug 
addiction problem in the whole city of Minneapolis.
    Now, the question is, is this going to repeat itself? There 
has been a little bit in New Orleans, a little bit in Detroit. 
My understanding is Omaha and Portland have started to see it 
in the minority community, too. But there should be starting to 
get enough of a sample to be able to test the theory. Because 
we have our first urban exposures.
    Even in my home district, Fort Wayne has no meth. Elkhart 
has crack. South Bend is still cocaine and heroin. Even in 
Kosciusko County, where the whole area around the city of 
Warsaw-Winona Lake, which maybe had 20,000 people, there is no 
meth in the town, in the bigger city. It isn't a question of 
minority-majority populations. To some degree there seems to be 
an urban-rural phenomenon to this, even on crystal meth.
    But this is the big challenge, because in anticipating 
where this drug is going to move, if there is indeed a 
biological difference, then that makes a big difference where 
the drug is going to move. If there is not a biological 
difference but just a distribution difference, then we have a 
different strategy toward trying to work it.
    Mr. Cummings. That is what I was trying to get to.
    Dr. Clark.
    Dr. Clark. I think it is a combination of all the factors, 
that is, what Dr. Madras and Dr. Volkow were stressing, that 
indeed you are dealing with multi-factorial issues. The data 
shows that African-American people who present for people, only 
0.1 percent are users. But that still is 0.1 percent, it is not 
zero. I think that is the key issue.
    So what Mr. Souder pointed out, the chairman pointed out, 
is in fact an issue. There is an access issue. The northeast 
does not have a major methamphetamine problem. So you go to 
Maine, it does not have a major methamphetamine problem. The 
African-American population in Maine is still really quite low.
    So there is access, there are drug gangs, there are 
importation routes, there are manufacturing routes, there are a 
host of issues associated with this. Communities of color, 
African-American communities should not assume that this is not 
going to be a problem because it hasn't been a problem. The 
fact is, if the African-American community has been spared the 
problem, it should recognize that the problem can come. And as 
other communities, Asian communities, Hispanic and Latino 
community. The American Indian and Alaska Native communities, 
very high prevalence rate compared to other ethnic groups, 
other than Native Hawaiians and Pacific Islanders, 2.2 percent, 
which is the largest among Native Hawaiians and other Pacific 
Islanders.
    So what we are dealing with here is a combination of 
access, biology in terms of genetics, preference, gang 
activity, importation, routes, etc.
    Mr. Cummings. Mr. Chairman, I know we have to get to our 
other panelists, and I am going to be very brief. But let me 
say this, that in my district, and I have literally seen this 
many times, where 100, 150 people, you can be riding down the 
street, and all of a sudden you see people coming from 
everywhere. And then if you hang around long enough, you see 
them lined up, straight in a row. And sometimes it is on a main 
thoroughfare.
    And if you watch long enough, what will happen is a drug 
dealer, along with his comrades, will come and give them 
samples. And everybody stands there, and it is almost like 
somebody says at 1 o'clock at North and Monroe, this is going 
to happen, and they are there on time, they are disciplined, 
they stand straight in a line. It is well organized, they have 
lookouts everywhere. And I am talking about in broad daylight.
    Now, what am I getting to? Drug salespeople are very 
sophisticated. They are some of the most brilliant people 
probably out there. They can actually operate an enterprise 
under the nose of the DEA, the FBI, the local police, the State 
police. And they do it very effectively. And what are they 
trying to get? Money.
    So it says to me that if they can come up with, and by the 
way, what they do, the reason why they are giving out these 
samples, of course, is to say my product is better than your 
product. So come back tomorrow and you can buy it, today it is 
free.
    So it seems to me, that somewhere in this country, somebody 
would say, you know, over there in Indiana, they have this 
stuff called meth, it is working, and it is making people high. 
And guess what? It stays in your system a long time. So maybe 
you can get a bigger bang for your buck. I mean, it is just 
logical. These people are out to make money.
    So I wonder what it is that would keep that person from 
coming over and at least, if they can do this in the inner 
city, under the eyes of the police, it seems like they would be 
doing it, we would be seeing even more Minneapolis-type 
incidents, like the chairman talked about, all over the 
country. And that is a concern, because it does tell us what we 
have to deal with.
    I just can't believe, the reason why all of it, what Dr. 
Volkow was saying, and you, Mr. Curie, it makes a lot of sense. 
But I have to tell you, a lot of people don't think it is going 
to get to the cities. I do. I do. Just because of the profit.
    Ms. Madras. Just to add on to this, if one gives animals 
access to methamphetamine, or amphetamine, or any of the 
emerging drugs, they will self-administer it as robustly as 
humans, if not more so. In fact, some of them will kill 
themselves with unlimited access. So this is a biological 
property of our human brains as well as our colleagues in the 
mammalian kingdom.
    Mr. Cummings. Last but not least, drug courts. Do drug 
courts have more effect--I think you were talking about this, 
Mr. Curie--do we find that drug courts are more effective with 
regard to methamphetamine, or is it about the same as with 
other drugs?
    Mr. Curie. I know that Dr. Madras discussed that. I think 
in terms of, I mean absolutely in terms of the impact overall 
with substance abuse we see drug courts being very effective, 
and we have seen them be effective with methamphetamine in 
terms of getting people in treatment. We know treatment works. 
I don't know if we have the actual data in terms of separating 
the meth--I guess the Matrix study would have that, yes.
    Mr. Clark. In the SAMHSA research project, one project that 
works as well as the Matrix Model was drug courts.
    Mr. Cummings. OK.
    Ms. Madras. And in the Vigo County drug court system in 
Indiana, the recidivism rate was only 16 percent for meth 
users, which means very, very high efficacy.
    Mr. Cummings. The reason why I asked that is you all talked 
about how long it stays in the system. I think somebody used 
the term ``intense relapse.'' And I was just wondering whether, 
when you have intense relapse, when you have a cocaine addict 
in drug court, as compared to a methamphetamine user, if the 
relapse is less intense for the cocaine user, more intense for, 
of course, the methamphetamine user. I just wondered how drug 
court affects that.
    Ms. Madras. One of the things the drug courts have that a 
voluntary admission into treatment does not is both the 
coercive aspect as well as the treatment aspect. So there are 
adverse consequences to failing. And what is so interesting in 
a number of areas in our society, such as the medical 
community, the Department of Defense community, is that when 
you impose adverse consequences on relapse, you get a much 
higher treatment rate.
    For example, physicians who are treated because of 
impairment, their relapse rate is much lower, because the 
consequence is the loss of their medical license. And in the 
Department of Defense, mandatory drug testing leads to 1 to 2 
percent positives, compared to the rest of society. So the drug 
courts have a certain measure of coercion with adverse 
consequences that has an added benefit, compared with voluntary 
treatment.
    Mr. Cummings. I often say, and I will close with this, Mr. 
Chairman, that people do things for one of two reasons or a 
combination of both: to gain pleasure or avoid pain. And it 
goes to what you just said.
    Mr. Souder. I thank you. We have had different people 
testify at our meth hearings on drug courts. One of the things 
is, the sample size is really relatively small yet in the 
United States. By the time you separate out mandatory entrance, 
in Arkansas it was mandatory going into the drug court, in 
other States it is voluntary to go into the drug court. Also 
the number of drugs you are dealing with, also a critical 
question is, did you catch them early or catch them late.
    Even in some of our counties, the drug court judge tends to 
get them earlier in meth than some of the other judges. We have 
one judge in one of my counties who has, the person is coming 
up for the third offense of cooking meth, and they haven't been 
prosecuted yet on the first one. That makes the measurement 
difficult, very difficult.
    But as we get more experience, the drug courts, the 
emergency rooms are the great mines for information to try to 
do this. We appreciate the service of all of you. Thank you for 
being patient with our questions today. Thank you for making it 
in a form that we can understand. It was very informative to 
each of us. We thank you for that.
    If the second panel could come forward and remain standing 
so that I can give you each the oath. Our second panel is 
Russell Cronkhite, recovered meth addict; Darren and Aaronette 
Noble, recovered meth addicts, with their son, Joey Binkley; 
Dr. Richard A. Rawson, associate director of the Integrated 
Substance Abuse Programs at UCLA; Leah Heaston, Noble County 
director of the Otis R. Bowen Center for Human Services in 
Indiana; Mr. Michael Harle, president and CEO of Gaudenzia, 
Inc.; and Pat Fleming, director of the Salt Lake County 
Substance Abuse Services.
    If you will each remaining standing so we can give you the 
oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
have responded in the affirmative. We thank you for coming 
today and we will start with Mr. Cronkhite.

STATEMENTS OF RUSSELL CRONKHITE, RECOVERED METH ADDICT; DARREN 
  AND AARONETTE NOBLE, RECOVERED METH ADDICTS, ACCOMPANIED BY 
 JOSEPH BINKLEY; RICHARD A. RAWSON, PH.D, ASSOCIATED DIRECTOR, 
  INTEGRATED SUBSTANCE ABUSE PROGRAMS, UCLA; LEAH C. HEASTON, 
  MSW, LCSW, ACSW, SAP, NOBLE COUNTY DIRECTOR, OTIS R. BOWEN 
    CENTER FOR HUMAN SERVICES, INC.; MICHAEL B. HARLE, MHS, 
 GAUDENZIA, INC.; AND PAT FLEMING, DIRECTOR, SALT LAKE COUNTY 
                    SUBSTANCE ABUSE SERVICES

                 STATEMENT OF RUSSELL CRONKHITE

    Mr. Cronkhite. Thank you, Mr. Chairman.
    Actually, I am very encouraged at some of the things I have 
heard today, especially for the progress in the drug courts.
    For nearly 12 years, I had the honor to serve our Nation as 
the executive chef of Blair House, the President's guest house. 
In my tour of duty, I served Presidents Ronald Reagan, George 
H.W. Bush and Bill Clinton, as well as nearly every world 
leader of this era.
    Today I am the author of two successful cookbooks. My work 
has appeared in several top food magazines. I continue to 
contribute food-related articles to publications like the 
Washington Post. Rather than write the latest celebrity chef 
trend cookbook, I have chosen to write cookbooks that encourage 
quality family time, promote a sense of community and foster 
traditional American family values, like A Return to Sunday 
Dinner and A Return to Family Picnics. I continue today with my 
career as a public speaker and working with faith-based 
organizations, community organizations for the purpose of 
encouraging families and family values and a sense of 
community.
    My family value message is not a marketing plan. In August, 
my wife and I will celebrate our 34th anniversary. She works 
for the Fairfax County school system here. We are the parents 
of three grown, adult children.
    But the one subject I have not spoken about publicly and 
something that I generally do not talk about at all is that I 
was addicted to methamphetamine, or speed, crystal meth, during 
my adolescent years. Indeed, you will be hard pressed to find 
anyone that I worked with in Washington, DC, or worked with in 
the hospitality industry over the last 30 years who would even 
believe that such a past struggle was even possible.
    I find no pleasure in telling or even recalling this self-
imposed hell that is so far removed from my life, but the 
epidemic sweeping our country has compelled me to come forward 
and tell my story. It is a story of restoration and redemption. 
I come here today as a private citizen with no connection to 
any party, political organization or advocacy group.
    My spiral into the drug culture began in 1965 and soon my 
life became a shattered mess that reflected the chaos of the 
turbulent times. By 1967, just after my 14th birthday, while 
looking for a better thrill, I fell into the frightening world 
of methamphetamine into a desperate addiction that continued 
over the next 3 years.
    Methamphetamine is different than other drugs. Using 
methamphetamine is not about escapism. Staying up for days and 
weeks on end without sleep is no escape from reality. Meth 
addiction is self-destructive. It is a slow suicide and is also 
a visible call for help. I knew full well the risks and down 
side of methamphetamine use. We used to say ``speed kills, 
speed thrills.'' It was a catch phrase. My spiral into this 
hell of meth addiction was severe. Self-mutilation, chaos, 
psychotic episodes and frightening and violent hallucinations 
and dementia. I came very close to pulling the trigger to end 
the madness that my life had become. I know those who did, and 
I know those who died by the needle.
    We were not the children of unfortunate circumstances. The 
Los Angeles community where I grew up was similar to the local 
communities surrounding Washington, DC, like Arlington and 
Falls Church. We were middle class and upper middle class 
families. My parents' friends were real estate brokers, 
doctors, contractors, school teachers, dentists, business 
owners, executives and engineers for companies like Douglass, 
Northrop and Hughes.
    I am not one who believes that drug addiction is a disease, 
per se. It is an illness, yes. It is not something that you can 
catch, like a communicable disease, like measles or chicken 
pox. There is a certain self-inflicted part to this disease, to 
this illness. I do understand the idea and the desire to sort 
of let people off the hook in counseling and provide an 
emotional, short-term, feel-better fix. But those who have such 
a low self-image that they are willing to engage in this kind 
of deadly behavior do not need to have additional guilt dumped 
on them.
    But the loss of personal responsibility, while attractive 
in the short term, can also take away the impetus for change. 
If we are simply creatures of our genetic makeup, predisposed 
to some disposition or some unfair twist of fate, we are sadly 
condemned and unable to rise above our very circumstances.
    Equally, I am concerned, as has been expressed here today, 
that some might suggest that methamphetamine addiction cannot 
be effectively treated. Clearly, my life is evidence to the 
contrary. The years between 1965 and 1970 found me in and out 
the juvenile court systems, and eventually the California Youth 
Authority. I owe a lot to some very dedicated counselors and to 
a parole officer who was more concerned about seeing me 
delivered than keeping me locked up.
    My road to recovery began with a very simple, act, though. 
An uncle, finding me dazed, my body reduced to that of some 
sort of holocaust survivor, simply put his arms around me and 
invited me in to have something to eat. There was no scolding, 
no lecture, no condemnation, just loving concern, served with a 
bowl of peaches. Today I applaud groups like CASA, who foster 
the values found around the family table and the quality 
companies that support their efforts.
    It does take a village. An effective drug treatment 
program, especially for the highly addictive methamphetamine, 
must be comprehensive. Faith in God, the support of my church, 
my family, dedicated school teachers and community 
organizations like the YMCA, coupled with a viable, quality 
psychological counseling and a State-run system that worked, 
brought me to a place of transformation and renewal in 1970.
    One of the first jobs I took as I rebuilt my life was that 
of a prep cook. You have to start somewhere. Still, without a 
high school diploma, a little consistent work experience and a 
troubled adolescence, I faced many challenges. People were not 
eager to hire me. But it only takes one exception. The first 
chef that I worked for had a policy of hiring the worst 
applicants. His thought was that if you gave someone a second 
chance, as someone had given him, the person would rise to that 
opportunity, work harder than someone with other choices. His 
views carried over throughout my career.
    Being an executive chef, like any business manager, is part 
babysitter, part marriage counselor, part drug counselor, part 
cop, part coach and part psychologist. Working with lower 
income employees here in the Washington, DC area, before I 
joined Blair House, who had limited training, limited 
educations and limited opportunities was a challenge. I met 
those challenges by listening and recognizing that outside 
influences faced by employees also affected their performances.
    When I was in the hospitality industry, I found that many 
of my employees were affected by the social plagues like 
domestic violence and substance abuse. Many of the employees 
that I had working for me in hotels in Washington, DC, and in 
Atlanta became involved in methamphetamine and amphetamines 
because they were working two jobs to support their families. I 
personally paid an employee's rent and covered their time off 
for treatment to compensate for the limited resources that were 
available, rather than lose an otherwise good employee.
    The social fabric of America has changed. Too often 
teachers are no longer part of the communities where they work. 
Most cannot afford to be. The lack of affordable health care 
means a family whose children struggle with addictive behavior 
often have few outlets for professional treatment.
    I know families who have mortgaged their lives, lost their 
homes and spent their life savings to save a child. I know 
families who have seen their children relapse into the 
frightening hell of drug addiction, simply because the 30 day 
maximum for mental health treatment and the 20 allowable 
followup counseling sessions have run out. These are the ones 
with health care. To my knowledge, Fairfax County, one of the 
country's most affluent communities, has only one facility 
available for these kinds of programs.
    According to a recent Washington Post article, Americans 
feel more and more isolated and have fewer people that they 
feel they can confide in in times of difficulty. Robert Putnam 
has chronicled these alarming social trends in a monumental 
work, Bowling Alone: The Decline and Revival of American 
Community.
    I am concerned about the mixed messages that we seem to be 
sending out. Today we have a lock them up and throw away the 
key mentality too often. I am especially concerned about this 
when it comes to juvenile justice: 14, 15 and 16 year olds are 
not adults.
    I do believe we should have little tolerance for those who 
manufacturer and distribute dangerous drugs for profit. In 
this, truly the love of money is the root of all evil. Those 
who market their witches brew of toxic chemicals for the sake 
of profit are a pariah on society and should be dealt with 
accordingly.
    But those who support a habit must be treated as a victim 
and a perpetrator. I truly wonder sometimes with a focus on 
interdiction rather than on treatment if I would have had the 
same opportunity to rebuild and reclaim my life 35 years ago, 
as I have. I was fortunate. My arrests and convictions all took 
place before my 18th birthday. And because I successfully 
completed my parole without incident for 5 years from my 
release from the California Youth Authority, my juvenile record 
was expunged, as it should have been.
    With the difficulties of my adolescence behind me, I was 
allowed to rebuild my life, rise to the top of my craft while 
providing for my family and served my country with honor and 
distinction. Trustworthiness is not about having lived a 
perfect life. It is about honesty and integrity. I believe to 
be fully redeemed we must be fully restored. William Penn 
believed that, and when he and his followers laid plans for 
Philadelphia, the first American city, they built a 
penitentiary rather than a prison. It was a place of solitude 
where one could consider their actions, come to repentance and 
return to society.
    I am not a recovered addict one slip away from remission. I 
am a highly successful professional, a father, a husband 
married 34 years, a church member, a member of my community who 
long ago, almost another life ago, struggled with addiction, 
because I struggled with self-doubt, self-hatred, self-
destruction and a disillusioned moral crisis. Addiction is a 
symptom of a deeper plague. To effectively treat addiction we 
must have a comprehensive plan to address the root causes. Left 
untreated, those causes will only reappear or resurface in a 
different form.
    I am here by God's grace to be sure, but I am here because 
those around me cared enough to come alongside me and offer 
help. My story is one of success. I am one for whom the system 
worked, where the unconditional love of family, community, 
Government resources, family doctor, faith-based organizations 
and self-determination and good counseling came together to 
save a life.
    Mr. Souder. Thank you very much for your testimony.
    Darren, you or Aaronette, who is going to give your 
testimony? You are Darren, you are next.

                   STATEMENT OF DARREN NOBLE

    Mr. Noble. Good afternoon. Thank you for the chance to 
speak to you as a father in recovery. Aaronette and I are the 
proud parents of two children, Casey, who is 6, and Summer, who 
is 17 months old. Casey is here with us today. I am also the 
very proud stepfather of Joey Binkley.
    I used meth for 14 years. My wife and I used meth together. 
We wanted to get help to stop hurting ourselves and our 
children. I tried treatment. I went into four different 
treatment programs, but each program was set up for single 
adults. I couldn't bring Aaronette or the children with me. So 
I couldn't concentrate on the treatment itself. I couldn't stop 
worrying about my wife still being in the situation that I had 
left. I couldn't stop worrying about my children, what was 
happening to my children.
    For treatment to work, you need time and space to think 
about you. But I couldn't think about me. I could only worry 
about my family. So after many years of using meth, trying to 
get clean, using again, I ended up in prison. In 1999, I was 
arrested for manufacturing meth. I used to manufacture meth by 
myself out in the woods.
    When I went into prison, I weighed about 120 pounds. I was 
not offered treatment in prison or after prison. After serving 
3 years and 10 months, I was released.
    Life didn't get better for us after prison. Aaronette and I 
continued to use meth. Our addiction got so terrible that in 
2005, Aaronette gave birth to our second daughter, who was born 
with meth in her. Child welfare took our baby away. But child 
welfare, along with the family court program, placed us into 
Bridgeway's family treatment program. Aaronette went into the 
women and children's program. I went into the men's program.
    I can't tell you how wonderful it felt to do treatment as a 
family. In the family treatment program, I knew that my wife 
and children were safe and healing. I could focus on my own 
treatment. But I could also heal with my family. At Bridgeway, 
we did family therapy, couples counseling, we had parenting 
classes. I learned how to communicate with my wife. I learned 
how to honor her. You see, before, our relationship was based 
on drugs. But now we know how to talk to each other, love each 
other, and we also know how to be parents.
    When I was using meth, my daughter Casey looked so scared. 
My daughter Summer lived with her grandmother. She was very 
attached to her grandmother. But today, our daughter Casey has 
a beautiful sparkle in her eye. She is doing well in school. 
And our daughter Summer has been returned to our custody, 7 
months ago. She is inseparable from us. We are a family.
    We have a support system made up of wonderful people from 
our family court and our family treatment program. They all 
worked together to help our family get clean and stable. Our 
social circle is made up of other parents in recovery. We are 
blessed. I am working in construction. We attend church. We 
still go to therapy. And we are a family with faith and hope.
    Thank you.
    Mr. Souder. Thank you. Aaronette, do you have a statement?

                  STATEMENT OF AARONETTE NOBLE

    Mrs. Noble. Good afternoon. Thank you for the honor of 
speaking with you today. My name is Aaronette Noble. I am here 
with my husband, Darren, my son Joey and my daughter Casey. I 
am a wife, a mother and a recovering addict. I grew up in an 
alcoholic home. I smoked marijuana for the first time at the 
age of 7. I first drank alcohol at the age of 14, and I began 
using cocaine and methamphetamine at the ripe age of 17.
    No one plans to have the disease of addiction take over 
their lives, and no one plans to end up in prison for 
methamphetamine abuse. No one plans to give birth to a tiny 
baby born with drugs in their system. No one plans to have 
their children tell them that they don't want to have anything 
to do with their mother. No one plans for these things. I know 
I didn't.
    When I was using meth, I felt dead most of the time. All I 
did was breathe in and breathe out. I had no motivation. The 
world was a very dark place. I had no hope or no faith in 
anything or anyone. Every day I would wonder why I just didn't 
die. I was so angry at God, the world, and mostly at myself. My 
teeth and my hair were falling out, and other people had 
custody of my children. My husband and I were homeless and 
sleeping in our car.
    Did I believe that family treatment could help me with all 
that was wrong in our lives? How could it? I had tried single 
adult programs but I never succeeded in staying clean. The 
programs were very short-term. They were only 90 days at most. 
I was not helped as a mother who had this shame and guilt 
because of my addiction. My children were not provided 
services. We could not heal together as a family.
    After years of prison and inappropriate single adult 
treatment programs, my addiction to meth got worse. I gave 
birth to my daughter, Summer. Summer was born addicted to meth. 
She was removed from my custody by child welfare. At that 
point, however, a miracle happened. My children and I were 
referred to a comprehensive family treatment program. We 
entered into Bridgeway Counseling and the Division of Family 
Services. My husband made a commitment to do the same.
    Bridgeway had just opened a men's residential treatment 
center next to the women's center. We were the first married 
couple to be in treatment at the same time. It helped to know 
that we were doing this apart but also together. Our addiction 
tore our family apart, so you see, we needed to find our 
solution as a family. I received services I didn't even know I 
needed. I saw a psychiatrist, who helped me with my depression, 
and I could sleep better, think more clearly. It was like 
someone turned a light on in my head, and my mind wasn't 
constantly racing any more.
    At Bridgeway, we started family therapy. I got counseling 
for past domestic violence and sexual abuse. I didn't even 
think I had issues in these areas until I finally opened up to 
my counselors and was truthful with myself. We took parenting 
classes, went to meetings and attended church. The Division of 
Family Services brought our baby to Bridgeway for Darren and me 
to see. She is a beautiful little girl with big blue eyes that 
can see right through you. I want her to only see good things 
in me today, and that is what she does. She gives me strength 
and courage.
    After 30 days of doing Bridgeway's residential program, my 
family and I transitioned into Bridgeway's intensive outpatient 
program. The beginning of our sobriety was not easy, but maybe 
it shouldn't be. Maybe we needed to work and struggle. We 
entered into a shelter. I came to Bridgeway during the day. We 
then as a whole family purchased a used trailer for $500. I 
have to tell you, we love that trailer. It is our first sober 
home as a family.
    My husband and I voluntarily joined a Family Safety Drug 
Court in order to have more structure and more support and 
allow the Division of Family Services to be an even bigger part 
of our lives. We had nothing left to hide. We only wanted our 
family back together. We only wanted to stay sober, we only 
wanted to make our children smile as often as we could.
    We also continue to receive the family based treatment 
services of family counseling, therapy and parenting classes at 
Bridgeway. Our family is not an exception. There are hundreds 
of parents like us who are clean, sober and stabilized because 
of family treatment programs like Bridgeway.
    But there are also many families in need of family 
treatment, and the waiting lists are long. There are only two 
family treatment programs in the whole State of Missouri, so 
many families get lost to the disease of addiction.
    My beautiful little Summer, with the blue eyes, has been 
reunited with us now. She has been with us for 7 months. I am 
sure those of you who are parents can feel the light of having 
all your children next to you brings you. The light is with me 
today, it is with me here in Washington, DC, it is with me 
every moment. I know that being a parent is not just a right, 
today it is a privilege. It is mine and Darren's privilege to 
be parents.
    No one plans to tear their world apart, and the world of 
their children. Today, because of available family treatment, I 
can plan every day to put their world back together. This is 
work, but it is the best kind of work. It is a struggle, but it 
is the best kind of struggle. We continue to go to meetings, we 
continue to meet with the court, we continue to make sober 
friends. And we begin, for the first time, to be sober heroes 
to our children.
    Thank you.
    Mr. Souder. Thank you. Joey, are you going to share your 
story with us now?

                  STATEMENT OF JOSEPH BINKLEY

    Mr. Binkley. Hello. My name is Joseph Binkley. I am 18 
years old and am a recent graduate of Ritenour High School in 
St. Louis, MO. For most of my life, my mother has been addicted 
to drugs and alcohol. In my early years, I had no idea that my 
mother had anything wrong with her. And I had no idea about 
drug addiction or the symptoms thereof.
    It wasn't until the end of elementary school that I 
realized that something was very wrong. My mother was acting 
very strange, and she had to be placed into treatment multiple 
times for drug abuse. I was not able to be with her during 
those times in treatment.
    A short time afterwards, she went into prison. From that 
moment until about a year ago, I completely stopped talking to 
my mother. I did not want anything to do with her. I felt 
betrayed.
    I lived with my father during my mother's incarceration. 
After getting out of prison, my mother was still using drugs.
    It wasn't until I learned that my youngest sister, Summer, 
was about to be put up for adoption that I felt I had to do 
something about this issue. I joined my family in the family 
treatment program at Bridgeway. The family treatment program 
helped rebuild my family and healed my mother's issues. 
Throughout the experiences of my mother's addiction and 
recovery, I could not leave my family, because that would not 
have helped me or my family. I felt that I may not have done as 
well without their support.
    We now can have birthday parties, graduation parties, and 
events such as those, just as any normal family would have. 
Surprisingly to most, my at-home issues have not affected me 
academically. Throughout the years, I have maintained a high 
grade point average. At the end of high school, I had around a 
3.8 grade point average, perfect attendance and was involved 
with multiple groups and organizations, including Leadership, 
D.J. for the school radio station, RCO, Teenage Health 
Consultants, Mu Alpha Theta, varsity baseball, Ritenour Big 
Brother/Big Sister, and I was on homecoming court.
    I was promoted to a managerial position at my job at 
ChuckaBurger, and I have also recently begun working as a 
driver for Pizza Hut. I have been accepted to Southeast 
Missouri State University with two scholarships, though I am 
still looking for more additional funding. I will begin 
Southeast Missouri State in the fall. I plan on becoming a 
physics teacher, so I am majoring in physics education.
    Thank you.
    Mr. Souder. Thank you for your testimony.
    Dr. Rawson, we appreciate your being here today. I just 
want you to know I am not going to sing happy birthday to you, 
but we thank you for coming on your birthday. Maybe as a 
concession, when UCLA comes to Notre Dame this fall to lose, I 
will do at least a clap in memory of your birthday and that you 
had come before the committee on your birthday. [Laughter.]
    Thank you very much for joining us, and we are looking 
forward to your testimony.

              STATEMENT OF RICHARD A. RAWSON, PH.D

    Mr. Rawson. Thank you, Chairman Souder. I want to thank you 
for the effort you have put in to address this problem of 
methamphetamine in the United States. For 20 years in southern 
California, we have been wrestling with this problem and trying 
to get some attention. Until your efforts, it has been somewhat 
challenging. This committee has been a breath of fresh air in 
giving us some assistance and attention to this problem.
    My name is Rick Rawson. I am a professor at UCLA. And for 
the last 30 years, I have done work in the field of drug abuse. 
From 1983 until 1998, I ran a non-profit organization called 
the Matrix Institute in southern California. We were asked by 
the health director in San Bernardino County in 1986 to come 
and open a clinic because of a methamphetamine epidemic in San 
Bernardino in 1986. We had several other clinics at the time 
that were seeing hundreds of cocaine users, since that was the 
peak of the cocaine epidemic. But in San Bernardino County, 
methamphetamine was already a severe health problem.
    The clinic we opened in 1986 in the first year saw 150 
patients. This year it will see closer to 1,000 patients. Over 
that time, we have now seen between 7,000 or 8,000 
methamphetamine users in that clinic.
    In the late 1990's I went back to work. I had started at 
UCLA and I went back to work to UCLA and I have been there now 
for 10 years, overseeing a portfolio of research. But for 15 
years, I sat in a chair and saw one patient right after 
another, half of them being cocaine users and half of them 
being methamphetamine users. We started to put together some 
treatments and developed a treatment model that has since 
become known as the Matrix Model that you have heard of, and we 
have collected some data on.
    Now that I am a so-called methamphetamine expert, I spend 
about 100 days a year traveling around the country talking 
about methamphetamine and the problem and the treatment. I do 
hear some very interesting questions and myths. But of course, 
the one that is most interesting is this issue about 
methamphetamine users being untreatable. The term I frequently 
hear is that fewer than 5 percent of methamphetamine users get 
better.
    I think that initial reference came from a Rolling Stone 
article in 1997, that is where that figure came from. It was 
one of our better scientific journals. [Laughter.]
    In my written testimony, I give you some data on this 
comparability between treatment of methamphetamine users and 
treatment of other substance abuse disorders. But in short, we 
have run three controlled clinical trials and we have analyzed 
three large data sets where we have looked at meth users and 
cocaine users. We have looked at the data in every way we can 
possibly think of to look at it. We have found absolutely no 
evidence of any difference between those groups.
    In fact, we think that the treatment for stimulant users, 
probably the outcome is better than it is for heroin addiction, 
except that heroin addiction, we have medications like 
methadone and buprenorphine, which we don't have for 
stimulants. But there is no evidence that I can find or that 
any of my colleagues have been able to find that meth users are 
any less responsive to treatment than any other patient 
populations.
    Now, there are some slightly different issues that often 
need to be discussed in treatment, and that is what we have 
tried to program into our treatment materials. SAMHSA has 
evaluated these in a large-scale trial. But in general, across 
the board, our treatment outcome data for cocaine users, meth 
users, alcohol users, are all very comparable. We can't see any 
systematic difference.
    Why has the myth occurred? I think probably it is developed 
because during the 1980's, when we saw large numbers of cocaine 
users in urban centers, and NIDA responded and developed a set 
of training materials, and these training materials were 
disseminated where there were cocaine problems, people became 
quite skilled at using these empirically based treatments.
    However, in rural areas, where there really wasn't much of 
a cocaine problem in the 1980's and 1990's, they continued 
pretty much to use treatment methods that had been developed 
for alcoholics in the 1960's and 1970's, and just never gained 
any exposure to these new treatment strategies. When the meth 
users started showing up in the 1990's and this century, they 
didn't know what to do with them. They had never seen patients 
like this before. In the urban centers, they had, and they had 
adopted these treatments that have been useful.
    So I think the issue is not so much that one addiction is 
any more difficult than the other, but that one group of 
treatment providers in geographic areas had never seen anything 
like this. So they were really struck with the difference 
between their meth users and their alcoholics, which had been 
their standard patient population.
    I do think that the materials that SAMHSA has developed 
really are quite excellent. The dissemination of those 
materials and the training that goes on is going to be critical 
to getting the communities affected by methamphetamine 
providing effective treatment. I think that is a big need.
    There are a couple of things I would like to mention, a 
couple of points that I think have not been mentioned. Three 
months ago, we had data presented from San Diego County. San 
Diego is also one of the cities that was impacted early by the 
meth problem.
    The data they are presenting from San Diego--the 
epidemiologic data--suggests that right now the rates of meth 
use and admissions to treatment and emergency room visits are 
higher today than they have been any time in the last 20 years. 
This epidemic does not go away on its own. It is not one where 
it peaks and then you see a dropoff. We haven't seen any 
evidence in Hawaii or in Portland, OR, of any reduction in use. 
We have seen a reduction in labs, with the precursor controls, 
but not in use and not in the extent of the problem. I think 
that what you are doing with these hearings and getting 
attention to this problem is important, because I think it is 
going to continue to spread into the east coast and into the 
urban centers. And I think it is going to persist in areas 
where it has been a problem for some time. That is what the San 
Diego data tell us.
    Second, if you look at the Federal data on drug trends, and 
you look at adolescents, the Monitoring the Future data, you 
would think that there is no problem of meth use among 
adolescents. The California treatment data would suggest 
otherwise. In California, in the last data set that we looked 
at, almost a third of adolescents entering treatment were 
primary meth users. In some places, female admissions were over 
50 percent. That is if you looked at alcohol, marijuana and 
everything, coming into treatment, we were seeing 50 percent of 
the girls coming in for methamphetamine dependence.
    I think that we have to watch out that we don't let the 
same thing happen with the adolescent drug trends that we did 
with the adult drug trends, where we look at these surveys and 
say, well, I guess there is not a problem there. Our treatment 
data in California would suggest very differently, that 
adolescents are using methamphetamine, they are becoming 
dependent on methamphetamine.
    And that should be a priority, because as you heard Dr. 
Volkow say, it affects adolescents' brains more profoundly. We 
are not sure about the recovery from meth for adolescents, 
although the story was very hopeful. It is a concern for us. So 
I do think that paying some attention to this problem with 
adolescents is important.
    I appreciate the opportunity to speak to you. I am a big 
fan of this committee and the work that you have done. I would 
like to thank you all for taking this effort on.
    Mr. Souder. Thank you very much.
    Ms. Heaston, it is good to see you. Thank you for coming 
from Indiana to be with us today, and we look forward to your 
testimony.

                  STATEMENT OF LEAH C. HEASTON

    Ms. Heaston. Mr. Chairman and members of the committee, 
thank you for inviting me to participate in this hearing.
    For most methamphetamine abusers, treatment options in 
rural areas may be few and far between. For the Bowen Center, 
even with the ongoing support of our local coordinating 
council, Drug-Free Noble County, Judge Michael Kramer, CADCA 
and the Indiana Division of Mental Health and Addiction, we are 
still having difficulties with the full implementation of the 
Matrix Model, due to the following barriers.
    The first barrier to the availability of methamphetamine 
treatment in rural areas is the absence of qualified and 
experienced staff. Staff recruitment and retention of 
individuals is very difficult. Even with constant recruitment, 
openings are continuous. As a result of the absence of 
qualified staff, rural areas have been left recruiting and 
training from within. This process is very lengthy and 
expensive, especially as most rural areas are not experienced 
with the cocaine epidemic. So treatment starts to feel like an 
uphill battle.
    Until rural areas have enough qualified, experienced staff 
providing these services, the outcomes for treatment will be 
affected. The next barrier is summarized by Dr. Thomas Freese, 
as he states, ``Training alone is insufficient if the funding 
necessary to deliver these treatment recommendations is not 
available.'' Treatment is not cheap. But it is less expensive 
to treat methamphetamine abusers than it is to incarcerate 
them. According to the principles of the Drug Addiction 
Treatment, A Research-Based Guide, it states that 
``conservative estimates indicate that for every dollar spent 
on treatment, four to seven dollars are returned in reduced 
crime, criminal justice costs, and theft.''
    The Noble County jail has a third of its population 
incarcerated for methamphetamine related crimes, and in 10 
months spent one tenth of their medical budget on oral and 
dental damage from the use of methamphetamine. For most 
methamphetamine abusers, the cost of treatment is very high. 
Many have lost everything due to their use and do not have the 
money for food and shelter, let alone treatment. Those 
individuals with managed care may not be covered due to legal 
difficulties. And even if they are covered, the limitations of 
managed care make effective treatment extremely difficult.
    Effective treatment should also include family therapy and 
case management, which is an additional cost. The lack of 
funding for these services is yet another barrier.
    Another barrier is transportation. Transit systems do not 
exist in rural communities, and even if they do exist, the cost 
is prohibitive. Many individuals lack a driver's license, 
vehicle and even the money for gasoline. Women present another 
interesting challenge, as they are typically the primary 
caregiver and run the risk for pregnancy. They also have higher 
rates of mental health concerns, poverty and lack the skills 
necessary for employment.
    In Indiana, 47 percent of the individuals abusing 
methamphetamine are women. Research shows that women are less 
likely than their male counterparts to access services. Women 
are also in need of child care service, which is an additional 
cost and barrier.
    One way to increase the effectiveness of treatment is to 
have separate programs for men, women and adolescents. In rural 
areas, implementing one program is difficult. Three separate 
programs is almost impossible.
    Due to the effects of methamphetamine on the brain, 
treatment needs to be long-term, intensive and comprehensive. 
It needs to include topics on methamphetamine, but also 
medical, psychiatric and mental health issues. Another barrier 
in rural areas is the difficulty recruiting and retaining 
psychiatrists. With the use of the Matrix Model, treatment is 
effective.
    In summary, my recommendations for rural communities are: 
first, the continued and increased support of the Substance 
Abuse Prevention and Treatment Block grant. In Indiana, this 
block grant funds over 70 percent of all our addiction 
services, and 95 percent of prevention services.
    Second, the continued support of CADCA, which assists 
communities with linkage to national evidence-based resources 
and the development of community-based interventions for the 
prevention and treatment of alcohol and drug abuse. Assist 
rural communities with resources for personnel recruitment, 
retention and training. Provide resources for child care for 
those involved with treatment, and expand the access to 
treatment.
    I would like to thank you for your time, and for your 
commitment in addressing these concerns.
    Mr. Souder. Thank you very much.
    Dr. Harle.

                 STATEMENT OF MICHAEL B. HARLE

    Mr. Harle. I am glad that you made me a doctor. I am going 
to work really hard to make sure that I live up to that. 
[Laughter.]
    Good afternoon, Chairman Souder, and committee. I have 
written testimony here, and I don't want to read it, because I 
think that you can read it yourself. So I would like to comment 
on what I do have in my testimony and try to make those points 
that either you have asked questions about or that I have 
direct experience in.
    I will just give you a little bit of my background. I am 
the president and executive director of Gaudenzia, Inc. We are 
the largest freestanding treatment program in the State of 
Pennsylvania, and we are soon to be the largest program 
probably in the State of Maryland. We are also located in 
Delaware.
    We service an awful lot of people on any given day. We have 
been in existence since 1968. We have 91 programs in 51 
locations. About 2,300 people a day are in outpatient and 
residential programs in the community and about 1,600 of those 
people are behind the walls in prison.
    Additionally, we have 419 children under the age of 12 that 
are not addicted but are in treatment with their parents. We 
have six programs that are for women and their children and 
their family members. So we are pretty serious about doing 
this.
    This month we will open up and additional program in the 
Park Heights section of Baltimore. By the way, right across the 
street from our facility is where they used to have those lines 
that Congressman Cummings talked about. I have observed those 
lines. Those lines still exist, but they do not exist near our 
treatment program, because one of the things that addicts don't 
like to be around is jails and treatment programs, while they 
are actively addicted. When they are not addicted, that is the 
place that you will find them.
    I am presently also the president of Therapeutic 
Communities of America, which represents over 700 programs in 
32 States, including Puerto Rico and the Virgin Islands. I have 
been witness, many of our TCA members are located in places 
like the central valley of California, where 100 percent of 
their treatment admissions are methamphetamine. Our treatment 
programs have been treating these people probably since 1968.
    So to just let you know that it depends on where you live 
in the country on whether or not your admission is for 
methamphetamine. I think there was an earlier discussion in 
regard to the economics of this. Where it is more available, 
the treatment admissions go up. Where it is cheaper, treatment 
admissions go up. So there are many, many variables, and I 
think that the scientific panel gave you a lot of history about 
that.
    But I can tell you that as a counselor, I gave you all my 
credentials, and I am going to give you a little bit of a 
different perspective. As a counselor, and I think I heard a 
little bit of this before, I didn't see differences in regards 
to the outcome for methamphetamine addicts. The challenges were 
different, the etiology of the disease was a little different. 
But what was really necessary was long-term treatment, in order 
for people to heal. Some of the psychosis that was talked about 
may continue. Some of it, with some of my clients, continued 
for years beyond that. Not as great, but you had to stay there 
with them, you had to get in there and be with them. The longer 
the addiction was, the longer you are going to have to spend 
time in treatment.
    What I added to this was an attachment A. Attachment A 
shows that in the State of Washington, there was a recent study 
done where they say for every addict there is a cost offset of 
about $296 per person when you treat them. Methamphetamine 
treatment, stimulant treatment, is actually more cost effective 
than other treatments for other diseases. Not much, it is a 
difference of $19 per day that you save. So you save money when 
you provide treatment. And that is what I want to discuss.
    The problem is that there are giant holes in our national 
treatment network. It does not exist in the right amounts in 
the right places throughout the country. You heard about the 
rural areas. You heard about the lack of family treatment. For 
some reason, as a society, we have not invested the kind of 
money in treatment programs as we have invested in the criminal 
justice system or in the prison system.
    And I can attest to that, because I have more people on a 
daily basis behind the walls that I am treating on some days 
that I do in the community. We have a real problem here that we 
need to address. And it didn't just happen today. It is not at 
the doorstep of this committee. It has been a problem for the 
last decade or so. What we have done is we consistently leveled 
off our treatment and we have added things to our treatment 
system, such as managed care. It is not managed care, it is 
managed cost. And what it has done is it has reduced the length 
of stay of treatment. So our treatment system is more damaged 
today than it was 10 years ago.
    Right now, if you are a crack addict in Philadelphia, 
sometimes the decisions on whether or not you are going to get 
treated are made on Wall Street. They are not being made where 
they need to be made. They are being made based on profit and 
loss, and short-term profit and loss, not long-term profit and 
loss. And that model does not work for substance abuse 
treatment. We have implemented it throughout the country. That 
is a problem, and a particular problem for rural areas.
    And for women, and for women with children, this is very 
difficult to access treatment. When people are ready, keep in 
mind, you are going to have to use the criminal justice system. 
People don't wake up 1 day and say, you know what, I would 
really like to get treatment for my long-term crack addiction 
or my long-term methamphetamine addiction. They are psychotic 
when you are first talking to them.
    So you are going to have to use outside forces to get them 
to the treatment door. And when you do, it needs to be the 
proper treatment for the proper length of stay. And I can tell 
you that we provide Therapeutic Communities, we have been doing 
it a long time, there is a tremendous cost offset. It is a lot 
cheaper than any other way of treating them, and it is also a 
lot cheaper way to provide the help, by doing it long-term and 
doing it right the first time, instead of spending tons of 
money on the effects of the addiction.
    Pennsylvania alone spends $3.4 billion, not treating 
addiction, on everything but the treatment itself. And I think 
that you can see there, there is a CASA study in 2001 that 
shows that across the Nation.
    Now, the work force problem, if tomorrow you said we need 
to put up a treatment system now, we are going to do it now. It 
is going to take 10 years. You can't do it right away. We are 
going to have to use the targeted capacity, we are going to 
have to follow these epidemics. But think about it long-term. 
There is going to be another epidemic.
    Right now in Pennsylvania, I have a 100 percent increase in 
treatment admissions for methamphetamine in Erie, Erie, PA, 
which is in the northwestern corner. I have a 275 percent 
increase in heroin in Philadelphia and the southeast of 
Pennsylvania. I have programs in the middle of Pennsylvania, it 
is moving together.
    What happens in Harrisburg, the State capital, when these 
two things hit? I have two epidemics, and I don't have any more 
treatment programs, and I don't have any more staff. Matter of 
fact, most of my staff are getting to retire. Some of them are 
the methamphetamine folks that I used to treat in the early 
1970's because Pennsylvania, the southeast corner, was where 
the Dupont, Allied Chemical, all the major precursors to make 
methamphetamine was. And we had an epidemic.
    What we did is we moved the labs to southern California and 
to San Diego and made that now, it is called Crystal City, is 
what they call San Diego. What we did is we just moved it. So 
that is what we did, we made it illegal to sell those 
precursors in Delaware County, PA, and we moved it to Mexico 
and they moved it right back across the border. Eighty percent 
of the methamphetamine comes from labs in Mexico, 80 percent. 
And if you stop it in Iowa, they are going to produce more of 
it in Mexico. If you stop it in Mexico, they are going to 
produce it in Canada.
    I am not casting aspersions on anybody, and if they can't 
get it in Canada, they are going to make it in Maryland, 
wherever there is profit in this. We have to reduce the demand. 
And to reduce the demand, you are going to need effective law 
enforcement, effective treatment and effective prevention. 
Right now, we don't have the treatment system to handle this 
epidemic. That is what they are telling you, we don't have the 
work force, we don't have the facilities and we need help.
    It is going to require a long-term plan. There is no magic 
cure. And by the way, if you are looking for a magic cure for 
methamphetamine, I would guarantee you that same drug we come 
up with will end up getting abused and will change the 
molecules to that. Our clients look for magic cures. Do not 
look for magic cures. Look for long-term, hard-won solutions, 
just like these folks have had to do. They have had to work 
hard at it. Give them the right resources to do it.
    It takes time, it takes effort. I am sorry for being so 
passionate about this. But I talk to people who die, we have 
many people who succeed. We have a lot of people doing really 
well. But I also have the displeasure to speak to families who 
can't get their kids into treatment and they have passed away. 
We have people dying from this epidemic.
    So please, think about a long-term plan for this. I have a 
lot of stuff in my testimony. I really don't think you need to 
hear that. I think my message is what I would like to get 
across, because I only have a limited time, so thank you.
    Mr. Souder. Our last witness is Mr. Fleming--are you 
Doctor? Or do you want to become one?
    Mr. Fleming. Well, if you want, yes, I would love it. I get 
more money that way, I guess. [Laughter.]

                    STATEMENT OF PAT FLEMING

    Mr. Fleming. My name is Pat Fleming. I am the director of 
the Salt Lake County Division of Substance Abuse Services. I 
would like to thank you, Chairman Souder, and Ranking Member 
Cummings, for hanging in there all day today. You have asked 
some really, really great questions and for your leadership on 
this issue.
    I am not going to read my whole statement, either, because 
I think a lot of it has been repeated. Treatment for 
methamphetamine does work, just know that, you have proof of it 
sitting at this table. It works.
    Our big issue that we have in the United States of America 
right now is our capacity. We have one funded slot for every 
four people that need treatment. That is really what our big 
issue is.
    What I would like to talk a little bit about is to give you 
a little bit of an idea of what we do in Salt Lake County and 
how we talk to our elected officials to get our local elected 
officials to pony up some dollars to help us with this issue. 
We have been rocked by methamphetamine. We were already on the 
ropes in our treatment system. Our treatment system was already 
under pressure and then methamphetamine hit. And we really are 
hurting right now.
    It is an epidemic in Utah, it is an epidemic in Salt Lake 
County. Just about everybody that we get in there is using 
methamphetamine in some way, shape or form. We have to deal 
with this.
    When I have talked to all our national organizations, the 
National Association of Counties, the National Association of 
State Alcohol and Drug Directors, National Association of 
County Behavioral Health Directors, I have been talking about 
this for 10 years. And it is so nice to have the national 
organizations and the Congress looking at this issue, because 
we definitely need help in this country with this.
    I have 12,000 admissions in my treatment system. We are the 
largest treatment system in the inter-mountain west. I have 
12,000 admissions a year. I have 48,000 people in Salt Lake 
County that need to be treated.
    Now, as you know, the burden of providing substance abuse 
treatment in the United States of America has been put on the 
back of the taxpayers. Seventy-five percent of all of the 
services we provide in the United States are publicly funded. 
That is the first place we have to look. We cannot do that any 
longer. I know Congress will be dealing with health care reform 
in the next 3, 4, 5, 6 years. You definitely need to include 
this as part of the health care system. Substance abuse 
treatment needs to be treated as part of a disease. It is a 
disease, it is a chronic disease, it needs to be treated like a 
disease. You have to deal with it that way.
    The second thing I think you need to do, and I am going to 
give you some very specifics here, because I think it is really 
important, I don't have very much time with you. By the way, I 
have to catch a plane at 6, so if there are any questions, I 
would appreciate those so I can get out of here.
    The block grant. All due respect to Mr. Curie, I think he 
has done a wonderful job, I want more money in the block grant. 
Everybody has said that today here. We need $250 million more 
in the block grant to put it to $2 billion. Now, it sounds like 
a lot of money, but it is not a lot of money in terms of some 
of the things we are spending money on these days.
    I think what we need to do is, if you want to earmark some 
money in the block grant for emerging drugs, whatever you want 
to do, go ahead and do that, that is fine. But the short-term 
solution is to get us more capacity. We know what to do, we 
know how to treat this drug. We can do it. But we need the 
money to help us with this.
    Then the second thing I would say is, if you can work 
something into the health care reform package that starts to 
provide primary health care, as to substance abuse treatment, 
in the very beginning I think what you will start to see is 
maybe less demand on the block grant, less demand on the 
taxpayer.
    Finally, the thing I would like to say to you right now is, 
methamphetamine has really rocked women in Salt Lake and in 
Utah. What we see is, we have now women using methamphetamine 
at higher rates than we have men using methamphetamine. That 
doesn't happen with any other drug. It does not happen with any 
other drug. And this is really worrisome to me. I have been 
doing this for 19 years, and I am very scared about that trend. 
Because what happens is, families fall apart without their 
mothers. They really do.
    We have started four family treatment programs similar to 
the ones the Nobles are talking about. They are very, very 
effective. I finance those with Medicaid. If I don't have 
Medicaid, I am going to lose three of those four programs. So 
when Congress is dealing with the Medicaid issue, and I know it 
is real simple to say, optional services, we are going to cut 
this, we are going to cut that, there are faces that are 
connected with that.
    So I think it has to be a three-pronged thing. We have to 
have health care and think about this as a health care issue, 
get it into health care, we have to have money in the short 
term in the block grant, $250 million, and we have to have 
Medicaid there, especially for women with their dependent 
children. That is how we pay for this.
    I look at the obituaries every day. And in Salt Lake, it is 
kind of interesting, our obituaries all have pictures. They 
have a picture of that individual next to the obituary. And I 
have gotten pretty good at reading between the lines in 
obituaries to see who is dying of overdoses. And I will tell 
you, it is just staggering when you see how many people pop up 
in the Salt Lake Tribune every day from this.
    So I will conclude. I am just so tickled that you are 
dealing with this issue. It is a major national issue for us. 
But we need some leadership on this, and we don't need 
discretionary dollars. I know people talk about the voucher 
system, they talk about putting money in discretionary dollars 
are not what we need. We need foundation dollars. The block 
grant is the foundation. If Congress puts money into the block 
grant, our State legislature will put money in and my county 
council will put money in. Without the block grant, we don't 
have anything.
    So I would just urge you to really pay attention to that, 
and thank you very much.
    Mr. Souder. Thank you.
    Do you have any questions directly for Mr. Fleming? He is 
not going to make it in rush hour unless he is out of here in 
the next 5 minutes.
    Mr. Cummings. Nothing, thank you.
    Mr. Souder. I thank you for coming in from Salt Lake. If we 
have some additional questions, we will submit them to you in 
writing.
    Mr. Fleming. Thank you.
    Mr. Souder. Let me first thank each of you for coming, for 
being with us in this long day. It is, as you can see, a very 
diverse hearing and very helpful. I appreciate the personal 
testimonies, which are always very helpful as we move into a 
hearing process. Partly, it is good to hear success stories, 
because sometimes when you go through this business, it just 
seems like you jump from one failure to another, are we going 
to get blown up on the border because of terrorism coming in, 
we have child abuse here and spouse abuse here, and all 
different kinds of crime. Of course, we don't know how to pay 
for health care, and Social Security is a mess, pensions are a 
mess. It just seems like we jump from one issue to the next.
    So having some encouragement that in fact some of the money 
that taxpayers are investing works is very helpful to hear. 
Each of your testimonies were somewhat different from each 
other.
    I think where I want to start is with Dr. Rawson. I found 
it really interesting what Mr. Harle said. So first let me get 
a factual thing down left over from the first panel. Let me 
start with Mr. Harle. Do you agree, Dr. Rawson, with his 
characterization that a lot of this early abuse started over by 
Philadelphia and Delaware County and then moved to San Diego, 
and that is why you saw some of this in San Diego early? 
Because that is a historical factoid that I hadn't heard.
    Mr. Rawson. I wasn't aware that it migrated like that. But 
yes, in the early 1980's, Philadelphia and the Philadelphia 
area was the leading area of methamphetamine abuse and 
dependence in the United States. I didn't know what had been 
done. I didn't know why it went away there.
    But then it moved to San Diego, and that is where we 
started to see it, so I wasn't aware of that.
    Mr. Harle. A couple of facts. Dupont, Allied Chemical, Rohm 
and Haas, all the major chemical companies, actually in South 
Jersey, ARCO, all those companies were right there. The 
chemists were there, the actual precursors were there. And 
there were drug addicts there.
    What happened is they hooked up with the chemists and they 
started to make it. Also, they first started to hijack it, 
because they were making a legal amphetamine. But as time went 
on, they started making it out in the community as--they are 
doing the same thing now. As we were restricting it and 
restricting it, what started to happen is people got creative 
and started making it on their own, they started bootlegging 
it. And they were selling, because we didn't have the Internet, 
they were selling handwritten formulas to each other.
    So they were recruiting chemist students out of high school 
to make it. It got really, really complicated. The motorcycle 
gangs, the Warlocks and the Pagans, took over the distribution 
of the drug up and down the east coast. They fanned out with 
that. So what happened is, there was a series of hearings, 
those drugs became illegal. The DEA was involved, and made 
those drugs illegal in the United States at all. I don't know 
the scientific, 2P2 I think is what they were called on the 
street.
    And that was then moved to Mexico. It was very soon, a 
couple of years later, you would see, and we were lucky because 
we got cocaine to take its place. So I want to let you know, 
addiction didn't go away, we just switched chemicals is what we 
did. We gave this plague to San Diego.
    Mr. Souder. One of the reasons I wanted to ask is that, 
given the fact that Philadelphia and San Diego are not usually 
considered rural areas out in the national forests, did the 
African-American community or other minority communities use 
meth at that time, when it first moved to San Diego?
    Mr. Harle. I can tell you what was happening. You had 
availability. You had heroin in the--matter of fact, you need 
to know this, because it is really important. You had $5 per 
bag heroin in Philadelphia, in the ghetto or in the projects, 
you got it inner city. Inner city, inner city. As you moved 
farther away from the inner city, the drug went up in price and 
it got cut. So it would get cut in half, that is they would cut 
the purity in half, and they would double the price.
    So if you lived in the suburbs, you paid $10 a bag and you 
got half the purity. You got the availability thing. So what 
happened is in the inner city, where they would sell it, very 
similar to today, it was more powerful and cheaper. 
Methamphetamine was actually a suburban drug that was moving in 
toward the city, and if you lived outside, it was $10 for what 
they used to call a quarter of a teaspoon, which would have 
been a quarter of a teaspoon of it. In the inner city, though, 
that would be cut in half and it would cost you $20.
    So what would happen is, there was trading going on. The 
suburban methamphetamine, speed freaks, we used to call them, 
monster, crank, it had all kinds of names, would trade for 
heroin, they would trade it, because it really had to do with 
who controlled the drug traffic. Keep in mind, the white 
motorcycle gangs and the suburban kids controlled, it had more 
to do with the availability of--I have a million theories of 
why one different than the other. Don't know why.
    But I can tell you, the theory that it is different gets 
thrown right out the window when you talk about crack cocaine. 
Because crack cocaine, although it is not as long-lasting, has 
the same effects. And it decimated the inner city.
    So I wouldn't get hung up as much in the type of drug as I 
would in the treatment. We need long-term quality treatment 
that is not drug-specific as much, but is addiction treatment. 
Because what happens is people will switch from one drug to 
another anyway. So you had better look at drug addiction as a 
holistic kind of view. If you don't, you are going to 
constantly have problems.
    Now, you need to train our whole work force who hasn't seen 
methamphetamine in a long time on what the effects are. There 
is the Matrix, there are different models that you can use. But 
they are really techniques that can be integrated into a 
treatment program. You really need a treatment model that is 
adaptable across the whole country that can be adapted to 
whatever the new epidemic you have.
    I have the same counselors treating heroin right now that I 
had treating cocaine that I had treating methamphetamine. The 
problem is, they are getting old and they are retiring and we 
don't have a new work force, we don't have enough resources to 
keep that alive.
    Mr. Souder. Dr. Rawson, I wanted to ask you, one of the 
things, as we have heard from the Nobles, that is in fact 
different, at least in the ``home cooker'' group, is it tends 
to be more family. In other words, historically the models are 
enablers and users. Whereas when they are cooking, because you 
can turn people in, unless their whole family is either 
involved or at least you may have the kids, they may be 
involuntarily involved, but we have had testimony at some 
hearings where even the kids are often recruited to get the 
chemicals or participate in the cooking.
    Does that require different models of treatment? Obviously 
today we heard about family treatment. Could you describe a 
little bit how your Matrix Model works and how it might be 
different in meth there from other types of drugs, or to deal 
with enablers and users?
    Mr. Rawson. Yes. The basic treatments with addiction are, 
as has been said, common across all addictions. Meth, really, a 
couple of the things that make it impact the family to a 
greater degree are the fact that people cook it in their homes, 
and you are seeing 50 percent of the users are women. Heroin is 
about three or four to one, men to women. So you are seeing 
many more women get involved, which obviously affects the 
children.
    To do any kind of treatment and not have a family component 
with methamphetamine is not supported by any evidence. You have 
to work with the family. The family either has to be brought 
into treatment, as was described here, which is preferable, or 
at least be able to inform them and get them understanding the 
addiction, so they can provide appropriate support to the 
addict in his or her recovery. So it really means the 
individual person as the target really is changed.
    With meth users, you really have to address the whole 
family, because in general, the addiction has affected the 
whole family. And it is not that this isn't true with 
alcoholism and cocaine addiction and heroin addiction. But 
because of these two factors, because the home literally 
becomes saturated with the drug and the kids are often exposed 
to the drug and you see it all in that environment, and so many 
women are using that it makes it that much more important with 
methamphetamine than with other drugs.
    Mrs. Noble. I would like to comment on that, if I could.
    I tried, I do believe, three to four individual treatment 
programs before I went into Bridgeway, the family treatment 
program. And those treatments were more on education. And on 
the family treatment programs, they offer different services, 
like the domestic abuse, the sexual abuse, having a 
psychiatrist, psychologist you could talk to. Just so many more 
services were available. And for the children, parenting 
classes, family therapy, we were offered that.
    And like I said in my testimony, I didn't even know I had 
issues in that. Addiction, not only to meth, but everything 
else, it starts out as an individual problem, but then it 
becomes a family problem, and then it becomes the community 
problem. So like I said, I went to three or four before that, 
and I knew all the just for todays and keep it simple. But I 
needed to find out why I kept using, what issues were with me. 
Because it is not just as simple as, I came to believe that a 
power greater--you have to be able to get the issues also so 
that you can intertwine that education in.
    Also as a preventive for the future, my family is involved 
in it. Therefore, maybe he will be able to make better choices 
that I wasn't able to make, because my mom and dad were 
alcoholics, and I wasn't given the opportunity to learn and 
know that there were more choices to handle certain issues in 
life.
    Mr. Souder. When you and Darren, Darren, did you have other 
abuse problems before meth?
    Mr. Noble. Yes. I believe I was an addict at birth, it 
started out with alcohol, weed, heroin, cocaine, crack, meth.
    Mr. Souder. But meth is what put you, in the end, into 
treatment?
    Mr. Noble. Yes.
    Mr. Souder. When both of you were abusing different types 
of drugs, one of the things we have heard from met addicts at 
the hearings that is slightly different that we have heard, but 
not completely different than other drugs, is that you tend to 
often become more isolated because of the impact of paranoia, 
fear of being discovered if you are home cooking, and you get 
isolated from most support groups. In other words, you are not 
necessarily going to be involved in church and community. Often 
you even leave your job.
    Did you see that differently in the usage of this drug, or 
was that kind of a pattern that was developing anyway?
    Mr. Noble. The only thing I can add is, outside of my 
addiction in general, the cooking the dope, I had been using 
since I was home from prison, I haven't cooked since I went to 
prison, I thought I could change my ways. But cooking is a high 
of its own. I don't know if you know that. But that is 
something that is separately addictive from using it and using 
my drugs. Cooking drugs, making dope was a high of its own. 
That is what dragged me away from my family, because that is 
all I was worried about. Forget everything else.
    But in my addiction of using methamphetamine, the paranoia 
wasn't there the same as when I was cooking. That is how we 
have gotten better, through the family therapy.
    Mr. Cronkhite. If I could add something into this, first of 
all, Mr. Cummings, to perhaps try to answer one of your 
questions that you raised earlier, about why there may appear 
to be less participation in methamphetamine addiction in the 
African-American community, I would be interested to see if 
there were any statistics at some point of whether or not there 
was less methamphetamine use in the Italian American community. 
And one of the reasons is, there is a stronger sense of family, 
a stronger sense of community in general.
    As the chairman was just stating, methamphetamine use is 
isolating, is not necessarily, you don't get together, pass a 
pipe around. Because it is so damaging physically, because it 
destroys your body so much, you actually end up, this 
emaciated, out of the concentration camp look, massive amounts 
of weight loss. I have known people who have been heroin 
addicts for 15 years and been successful brokers on Wall 
Street. You don't necessarily notice that they are having this 
kind of a problem.
    So part of it, as an adolescent, with extreme acne that 
came as a result of this, with this great weight loss, with 
this psychosis that came around, it is not a socially active, 
group participation drug. So that is why I found for myself, 
and this was again, 35 years ago, but the people in the 
community who surrounded themselves around my life and helped 
me through the process, part of that whole process of course 
involved long term psychological counseling. It was not 
something that could happen overnight.
    I was fortunate, I guess if we can use that term, fortunate 
in that I was arrested and I was entered into the California 
Youth Authority. So I had this long-term care, which was 
provided by the State as a youth offender. Other people may not 
have had that.
    So I think when we start looking at these kinds of programs 
where we want to see somebody who can really be regenerated and 
brought back into society and become really the poster boy for 
success, you have to start looking at, part of it is, you have 
to first treat the victim, the addict, like he's been in a car 
wreck. Then there is going to be a long-term period of time of 
rehabilitation, just like somebody who goes from being on the 
ER stretcher to walking with a crutch to getting physical 
therapy to having long-term care before they can really run 
again at full speed. So it is not something that is going to 
happen overnight.
    I was one of those suburban speed freaks in California 
whose graduate student friends at UCLA cooked the stuff up in 
the Hollywood hills and it was distributed by motorcycle gangs 
in Los Angeles. It is interesting, the paradigm does not seem 
to have changed much in that period of time. But again, I 
wonder whether or not, how much this loss of community, the 
loss of community support, we see that in data all over the 
country, plays an effect on these kinds of epidemics that are 
really isolating and further isolating as we become less 
connected to one another.
    Mrs. Noble. I would like to go back to the family issue, of 
women, why I believe I used meth is because of the role that 
the mother plays. It is a tiring job. But with family therapy, 
it brought us all together and everybody could distinguish 
their roles in the family and the church and the community.
    I think the family unit has taken a back seat to a lot of 
things today in life. And drugs have gotten into our families 
to the extent where families aren't together any more, a lot of 
families aren't. And I believe that family therapy worked for 
us because it brought us together, it gave us an opportunity to 
address our issues, what each of us individually and together 
were going through.
    Now we can communicate with each other. Now we can tell 
each other our hopes, our dreams, our expectations and work 
together as a unit, the way that it should be. Because before 
we went into this treatment place, we were lost. Before I went 
into this treatment place, I knew that jail or death was the 
only hope for me. And now, it has opened a lot of doors in my 
life. I have a life now.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. I was just thinking about something that the 
chairman said at the beginning of this hearing. It is something 
that I just want to address to the Noble family. What the 
chairman said was that a lot of people look at this thing as a 
thing of choice, that is the use of drugs. And one of the 
things that I have noticed in my community, the Seventh 
Congressional District, as I move from place to place, Dr. 
Rawson, I have noticed that it seems as if people are becoming 
less and less sympathetic and empathetic, because they feel as 
if somebody made a choice.
    And it is a real tough, it is a tough one. They see their 
property values going down, they see their families destroyed, 
they say to me, Congressman, I go out there, I bust my butt, I 
work hard every day, I can't come into my house at the end of 
the day and expect everything to be in place. And then it is 
hard for me to get excited, as much as I would love to provide 
funding for drug treatment, I don't have a lot of sympathy, 
because I go through problems, too. I have psychological 
problems, too, I can't afford a psychiatrist. But damn it, I 
get up every day, I work and I do the right things. And I can't 
even put my kid through school, but yet you want me to say, it 
is OK for you to go out there and bust your butt trying to get 
treatment for--and these are people who I would normally think 
would be sympathetic. But they get tired.
    And what I said to a graduating class of African-American 
addicts, recovering addicts the other day for a drug court, I 
said, you have to understand, the public is saying, OK, I mean, 
a lot of the public is saying, you made a choice. And they are 
getting less and less tolerant of funding bad choices. And I 
think that is something, and I just wonder as you go through, 
and I am going to talk to the family in a minute, do you get 
any of that when you are moving around to your hundreds of 
conferences and all that kind of stuff? Or those are not the 
kind of everyday people that you talk to?
    Mr. Rawson. No, those are exactly the people I talk to. And 
yes, I think that there is a fatigue factor going on with that. 
However, if you look at California, in 2000 the California 
voters in the voter initiative passed Proposition 36, which put 
$600 million into the treatment system, as opposed to into the 
jail system. If you make it a choice between treatment, and you 
document that treatment works, and particularly if you hook it 
with the criminal justice system, the drug court movement, in 
my 30 years of working in this field, is the most encouraging 
movement I have seen. Because it uses the leverage of the court 
system to push people in the door.
    As was said earlier by someone, Mr. Curie, I think, people 
don't wake up 1 day and say, gee, I think I want to get sober. 
That happens in response to something, in response to some 
pressure. I think that the California voters, anyway, 6 or 5 
years ago, were willing to put their money into treatment as 
opposed to the prisons. The voters in California are very sick 
of building prisons. We are the champs when it comes to 
building prisons.
    And one of the places I went was Minnesota, where they are 
starting to see, more than starting to see the epidemic. Their 
basic model for wanting to put money into treatment was they 
didn't want to replicate California's experience with having to 
build so many prisons.
    So I do think that there is a fatigue. I do think people 
are tired of having to deal with the problems in their 
communities. But when push comes to shove, and they have to 
choose and say, how are we going to deal with this, I think 
there is a recognition on the public's part that treating 
people with addiction disorders is a better use of money than 
locking them up in prisons. Because prisons simply make them 
better criminals.
    Mr. Cummings. I agree. I think you are absolutely right. I 
want you to understand, I am probably the No. 1 advocate of 
treatment in this Congress. But at the same time, I know that 
there are Members of this Congress who, if I hear this, I know 
that there are other people who hear it. And it is something 
that we may have to deal with even more so later on as budget 
stuff gets tighter and tighter. Because I think you are right, 
when you match it up with prison, building more prisons, it 
makes a lot of sense.
    I have to get back to something, though. Why do you all 
think it is that women are more likely, I think it was you, Dr. 
Rawson, who said that with heroin, I guess heroin and cocaine, 
it is three to one men. With methamphetamine, it is basically 
pretty much 47 percent, if I remember correctly, women.
    Mr. Rawson. That is right.
    Mr. Cummings. Why is that?
    Mr. Rawson. I would point at three factors. You have heard 
weight loss as being an important one. The rates of depression 
among women in the general public are much higher. And 
methamphetamine is a very useful anti-depressant when you first 
start taking it.
    And finally, Mrs. Noble's comments about the role of a 
woman in today's society, being a mother, taking care of the 
house, getting a job, having to take kids to things, 
methamphetamine can help you do all that stuff for a while. So 
it is a drug that does have good functional value for a while, 
and many of the women we talk to didn't get involved in it as a 
party drug. They got involved in it to get things done, to 
control their depression, to be able to work a 16 hour day and 
take care of all their responsibilities. You take heroin, you 
go take a nap.
    Mr. Cummings. And nod. Don't forget the nodding.
    Mr. Rawson. That is right. [Laughter.]
    Cocaine is so short-acting that you can't take it enough, 
it is so expensive, you can't take it to extend a day for 16 
hours. But methamphetamine is the perfect drug. And if you are 
a woman with those demands, it really matches up well with the 
demands on a woman in today's society.
    Mr. Cummings. Mrs. Noble, I don't want you to repeat things 
that you have already said, but based on what he just said, do 
you have anything to add that you have not said already?
    Mrs. Noble. Yes. I wanted to say, at first, using drugs is 
a choice. But once the disease of addiction sets in, it is no 
longer a choice. I had so much to say I lost it.
    But I was going to say, we are going back to the family 
treatment. Maybe if my mom had went into family treatment, 
maybe if she would have gone into family treatment, then I 
would have learned the coping skills, where my son has had an 
opportunity to learn more. Now he can teach his children. Maybe 
it might stop the cycle of addiction. Because nothing else has.
    Mr. Cummings. Tell me something. One of the things, and I 
am going to get back to you, Mr. Harle, but one of the things 
we spend a lot of money on in this Congress are ads, anti-drug 
ads. And I am just wondering, I see you shaking your head 
already, Mrs. Noble, but we want to use our dollars effectively 
and efficiently. Have you ever looked at an ad and said, you 
know, they have a point here?
    Mrs. Noble. No.
    Mr. Cummings. No?
    Mrs. Noble. No.
    Mr. Cummings. So ads just didn't affect you?
    Mrs. Noble. No. Too many distractions.
    Mr. Cummings. What about you, Mr. Noble?
    Mr. Noble. To me, as a kid growing up, I don't think 
anything was--I wasn't scared, I wasn't intimidated by things. 
When I went out to try something, I went out to try it, 
especially drugs. When I am wanting to do something, I am not 
trying to shy away from the things they are telling me not to, 
as an addict. But me, I am a believer that me, I was born an 
addict. This is what I was destined to be.
    But the treatment wasn't there for me, for me and my family 
to acknowledge. And like you were saying earlier with the lady, 
people who are opposed to treatment, say it is a waste of 
money, well, you could take that lady my record and ask me if 
she wants me to live next to her, in and out of prison and the 
shit I have done in my life, or you could take her who I am now 
after going through family treatment, or do you want this man 
living next to you?
    Mr. Souder. Joey, let me ask you the same question. You saw 
the narcotics in your family. You got a 3.8 average, you are 
going to be a physics teacher, go to college. You made it 
through all this with all the activities. Did the ads or any of 
the anti-drug programs, your teachers, what helped change you?
    Mr. Binkley. Well, I see the ads on TV, and there is so 
much else on TV, it is just another thing that is on TV, you 
don't really pay attention to it. You know the D.A.R.E. 
programs, I was in Teenage Health Consultants, which dealt a 
little bit with that. But it was more my home experiences to 
kind of let me know that is not good, that is not what I need 
to do. Because it just has a negative effect on the whole 
family.
    You can even see people outside the family looking in, 
noticing that it is not a good thing, and they kind of shunned 
it. So I made sure to stay away from it.
    Mr. Cummings. Mr. Harle, you wanted to say something. 
Please.
    Mr. Harle. Yes, I think what you bring up, the stigma, the 
issue of stigma, our folks, and I say that in a loving kind of 
way, are not the kind of folks, when they are actively addicted 
to any of the drugs, that are really encouraging a lot of 
sympathy from anybody. Matter of fact, the kinds of stuff that 
our folks do when they are addicted would make anyone not want 
to fund anything. So we are pretty aware of that.
    But what we need to do is educate the public that treatment 
works. I think people are frustrated. And most people have 
this, one out of four families is faced with this. So a lot of 
times, when you are talking to people and saying, I am really 
frustrated with this, they are talking about somebody that they 
know or in their own family. That is how much this is a part of 
our culture.
    And I think if we can get across to people that this is a 
generational disease, and I think it is right here in front of 
us, it is a generational disease, and it will grow if we don't 
stop somewhere. What you need to know is, we have 8,000 
clients, the majority of them, their age of first use was under 
11 years old. If you are talking about people making choices, 
they are experimenting, and that is why I think prevention, as 
you talked about earlier, is important.
    But it is really, the decisions that kids are making are 
before the age of 11 years old. And many of the kids that we 
are talking about are kids who have addiction in their family. 
I have 500 of them I see every day. Half of them are going to 
become CEOs, and they are going to be just like the young man 
right here, they are going to say, you know what, I have seen 
this in my family, I am not going to let it happen to me, I am 
going to work as hard as I possibly can not to let it happen.
    The other 50 percent or 60 percent are going to end up with 
the problem themselves for biological or environmental or for 
whatever other reasons. This is a generational disease that we 
have to stop somewhere. And I agree, you are going to need all 
the support in the world to convince the folks in the 
community, and we are going to have to get behind you, people 
in recovery are going to have to get behind you, treatment 
providers are going to have to get behind you. Because I don't 
think, though, that the average citizen thinks that locking 
these folks any more is going to do anything. I think we have 
gotten that across.
    Mr. Cummings. I hope that you understand what I was saying.
    Mr. Harle. I got it.
    Mr. Cummings. And I know Mr. Noble did. I guess the 
frustration comes, and I am almost finished, Mr. Chairman, the 
frustration comes when people feel that people make bad 
decisions.
    Mr. Harle. Right.
    Mr. Cummings. And that they then have to pay for them. I 
think that is the problem. But between the two of you, what you 
said, I think is was you, Mrs. Noble, that said the No. 1 thing 
may be a choice, but then it is not a choice. But what you just 
said is so powerful. It is starting with our kids. Then that 
means that we as adults are doing something wrong.
    So in some kind of way, you think about a mother's and a 
father's love. I just heard what you said, Mr. Noble, about you 
getting high. If you have little kids, the one thing that I 
think should almost frighten any parent, should make any parent 
just go nuts, is to think that they are cutting off the future 
possibilities of their children being successful. Any parent.
    Mrs. Noble. Can I comment on that?
    Mr. Cummings. Yes, please.
    Mr. Souder. Actually, we have six votes over on the floor. 
So this will be your last comment.
    Mrs. Noble. OK. In the addiction process, somewhere along 
the line, right became wrong and wrong became right. And that 
is what you teach your children. And that is what I taught my 
children.
    But through the family based treatment programs, you get 
the opportunity to turn that around, to teach your kids what I 
was doing was not right.
    Mr. Cummings. Thank you.
    Mrs. Noble. And you can bring the morals and everything 
back into your family.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. I want to thank each of you for coming, for 
taking time out. If there are additional comments that you want 
to submit, we will continue to try to work for additional 
treatment funds. But I want to give you this, you are leaders 
in the treatment movement.
    And this is one of the facts that you have to face: every 
single politician is also going out and talking to people and 
they have family experiences. There is no one I have ever met 
in any prison or in any treatment program that hasn't said that 
they have been through multiple treatment programs. If you 
oversell treatment, you will not convince the elected officials 
or the voters to do this. It has started to happen in drug 
courts, that short-term data that says there is an 85 percent 
success rate is not convincing when we start to get long-term 
data. This is a hard business.
    And as we heard today, there is going to be recidivism with 
it, and that you can't take artificial statistics. And partly 
overselling of treatment will result in people, and also there 
are different types of drug addicts. If the drug addict is 
violent, they are going to have a different opinion about 
treatment versus locking up, than treatment. And that is 
quickly shown, too.
    But I think that we are moving into a more sophisticated 
period, and drug courts are starting to illustrate that. And if 
we can get nuanced approaches.
    Then the last thing is, sometimes when you have an epidemic 
that hits the news, because there is also fatigue in news 
coverage, fatigue in what CSI and Law and Order can cover for 
that year or two, and when we have a new phenomenon come up, 
you find more willingness of the general public, particularly 
where you see something like meth, where they see labs going up 
and children getting damaged and the types of problems.
    We have an opportunity right now to move the whole 
treatment debate as part of the meth debate. And one of my 
frustrations with the administration has been a lack of 
understanding that, because like you say, these things may not 
exactly repeat themselves, but they run. There are nuances to 
the differences, they are different, but to some degree, to 
avoid the fatigue, we have to have new angles with it.
    So thank you very much for your personal testimonies today, 
for shedding so much light. I have sat through, and we have sat 
through so many of those hearings, and yet every one, today we 
have learned so many different angles with this. It has been 
tremendously helpful to us and hopefully it will be to anybody 
who watched it.
    With that, we stand adjourned.
    [Whereupon, at 5:18 p.m., the subcommittee was adjourned.]
    [Note.--At the time of printing no prepared statements were 
available.]

                                 <all>

</pre></body></html>
